<html>
<title> - OVERSIGHT OF THE FOREIGN INTELLIGENCE SURVEILLANCE ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      OVERSIGHT OF THE FOREIGN INTELLIGENCE 
                                  SURVEILLANCE ACT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 18, 2019

                               __________

                           Serial No. 116-47

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


               Available via: http://judiciary.house.gov
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-884                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
               
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         MARTHA ROBY, Alabama
DAVID N. CICILLINE, Rhode Island     MATT GAETZ, Florida
ERIC SWALWELL, California            MIKE JOHNSON, Louisiana
TED LIEU, California                 ANDY BIGGS, Arizona
JAMIE RASKIN, Maryland               TOM MCCLINTOCK, California
PRAMILA JAYAPAL, Washington          DEBBIE LESKO, Arizona
VAL BUTLER DEMINGS, Florida          GUY RESCHENTHALER, Pennsylvania
J. LUIS CORREA, California           BEN CLINE, Virginia
SYLVIA R. GARCIA, Texas              KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY MCBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        PERRY APELBAUM, Majority Staff Director & Chief of Staff
                BRENDAN BELAIR, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                     Wednesday, September 18, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

                                WITNESS

Brad Wiegmann, Deputy Assistant Attorney General, Department of 
  Justice, National Security Division............................     6
  Oral Testimony.................................................     6
Michael J. Orlando, Deputy Assistant Director, Federal Bureau of 
  Investigation, Counterterrorism Division.......................     7
  Oral Testimony.................................................     7
Susan Morgan, National Security Agency...........................     9
  Oral Testimony.................................................     9
Joint Written Statement of Brad Wiegmann, Michael J. Orlando, and 
  Susan Morgan...................................................    11

                                APPENDIX

A Letter from the ACLU to Chairman Nadler and Ranking Member 
  Collins submitted by the Honorable Chairman Jerrold Nadler.....    52
Questions for the Record submitted by the Honorable Ted Lieu.....    59
Response to question for the Record from Brad Wiegmann...........    60
Questions for the Record submitted by the Honorable Sylvia Garcia    62

 
         OVERSIGHT OF THE FOREIGN INTELLIGENCE SURVEILLANCE ACT

                              ----------                              


                     Wednesday, September 18, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 10:13 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Cicilline, Lieu, Raskin, Jayapal, 
Demings, Correa, Scanlon, Garcia, Stanton, Escobar, Collins, 
Chabot, Gohmert, Jordan, Buck, Ratcliffe, Roby, Gaetz, Johnson 
of Louisiana, Biggs, Lesko, Reschenthaler, Cline, Armstrong, 
and Steube.
    Staff Present: Aaron Hiller, Deputy Chief Counsel; Arya 
Hari-haran, Deputy Chief Oversight Counsel; David Greengrass, 
Senior Counsel; John Doty, Senior Adviser; Madeline Strasser, 
Chief Clerk; Moh Sharma, Member Services and Outreach Adviser; 
Susan Jensen, Parliamentarian/Senior Counsel; Sarah Istel, 
Oversight Counsel; Julian Gerson, Staff Assistant; Priyanka 
Mara, Professional Staff Member; Sophie Brill, Counsel; Brendan 
Belair, Minority Staff Director; Bobby Parmiter, Minority 
Deputy Staff Director/Chief Counsel; Jon Ferro, Minority 
Parliamentarian/General Counsel; Ryan Breitenbach, Minority 
Chief Counsel, National Security; and Erica Barker, Minority 
Chief Legislative Clerk.
    Chairman Nadler. The House Committee on the Judiciary will 
come to order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on Oversight 
of the Foreign Intelligence Surveillance Act. I will now 
recognize myself for an opening statement.
    The Judiciary Committee is holding today's hearing to carry 
out one of its most important tasks, to ensure that the tools 
used by our Government to keep us safe are consistent with our 
values and with the freedoms guaranteed by the Constitution. 
This Committee has long exercised its responsibility to shape 
the legal framework under which intelligence and law 
enforcement agencies investigate threats and collect evidence 
of crimes.
    Although we do not conduct day-to-day oversight of 
intelligence agencies, it falls to us in hearings like this to 
conduct a broad review of how our Government exercises its 
legal authorities and whether that conduct accords with our 
values as Americans.
    At the outset, I want to acknowledge two things. First, the 
men and women in our Nation's law enforcement and intelligence 
communities, including our witnesses today, work tirelessly to 
keep us safe from attacks and other threats by hostile 
adversaries. Those efforts include working rigorously to comply 
with our laws.
    Second, there are countless Americans in the privacy and 
civil liberties communities who are dedicated to keeping us 
safe from other kinds of threats--threats to privacy, freedom 
of speech, and due process--that take hold when the 
Government's surveillance authorities extend too far.
    Those who criticize and question the laws we will be 
discussing today are part of this Nation's proud and robust 
tradition of holding our Government to account, questioning the 
Government's reasons for its actions and jealously safeguarding 
the freedoms guaranteed to us by the Constitution. It is in 
that spirit that I hope to have a serious and substantive 
discussion today about the Foreign Intelligence Surveillance 
Act, or FISA, and the provisions that are set to expire at the 
end of this year.
    In response to substantial concerns that the intelligence 
community had exceeded its authority under FISA, Congress, in 
2015, enacted the USA FREEDOM Act, which contained several 
important reforms. Notably, we put an end to the NSA's program 
under which it collected the phone records of millions of law-
abiding Americans using a highly strained interpretation of a 
provision in the 2001 USA PATRIOT Act.
    We reformed that provision, known as section 215, to 
prohibit both the collection of phone records and other types 
of records. Instead, to collect certain kinds of phone records, 
we required the NSA to apply to the FISA court for an order 
based on individualized facts and on a specific selection term.
    We also created an important mechanism to ensure that the 
FISA court hears both sides of the legal arguments in cases 
presenting novel and important issues. And we enacted several 
measures to enhance transparency in the FISA court and in other 
types of reporting.
    At the end of this year, section 215 and two other FISA 
authorities, known as the ``roving wiretap provision'' and the 
``lone wolf provision,'' are set to expire unless they are 
reauthorized by Congress. Because these three provisions give 
the Government powerful and controversial intelligence 
authorities, Congress attached them to sunsetting provisions 
when they were first enacted and has reauthorized them for 
limited periods of time ever since.
    These periodic reauthorizations provide this Committee and 
other committees an important opportunity to review how these 
laws are used and to conduct the kind of oversight that we are 
doing here today. Last month, however, former Director of 
National Intelligence Daniel Coats sent a letter to the 
leadership of this Committee and other committees in the House 
and Senate asking that we reauthorize all three provisions 
permanently.
    At the same time, former Director Coats' letter 
acknowledged that the NSA has dismantled the call records 
program that it had been conducting under section 215, as 
amended by the USA FREEDOM Act. Simply put, the NSA dismantled 
the program because it was a serious failure.
    The NSA used it to collect hundreds of millions of phone 
records, but in 2018, it discovered that it had no authority to 
collect some of the records it was receiving. Worse, it had no 
way of separating out which records were wrongly acquired from 
the ones that were collected lawfully. So, it started deleting 
them all. This has all been publicly reported by the 
intelligence community.
    To be clear, it is not a bad thing that the NSA identified 
a problem, told us about it, and tried to fix it. It is also 
fine that they decided the program was not worth running. As 
former Director Coats put it, the decision to end the program 
was made after balancing its ``relative intelligence value,'' 
which was evidently minimal, against ``compliance and data 
integrity concerns.''
    The NSA decided that the costs outweighed the benefits, and 
it pulled the plug. That kind of candor should be applauded. It 
is baffling to me that the Administration announced that it had 
shuttered the program and then, in the very same breath, asked 
Congress to extend it permanently.
    The Administration has offered almost no reason for this 
striking position, except the vague suggestion that we might 
need the program sometime in the future as technology changes 
and as our adversaries' capabilities evolve and adapt.
    When Congress enacted the USA FREEDOM Act, we made a good 
faith effort to give the intelligence community the capability 
that it said it needed to collect call records. That experiment 
has run its course. If the Administration really wants to keep 
this provision on the books, it is going to have to justify it 
with more than a vague promise that it might come in handy one 
day in the future somehow.
    I look forward to discussing the other authorities that are 
set to sunset, including aspects of section 215 and FISA's 
roving wiretap and lone wolf provisions. I also look forward to 
discussing, as well, the important reforms that we enacted in 
the USA FREEDOM Act and whether any of those reforms should be 
strengthened.
    As I noted earlier, this Committee has an important and 
long-running responsibility to have these candid and rigorous 
discussions as we consider how best to ensure that our laws are 
in line with our values.
    I thank today's witnesses for being here today and for 
their service to our Nation.
    I now recognize the Ranking Member of the Judiciary 
Committee, the gentleman from Georgia, Mr. Collins, for his 
opening statement.
    Mr. Collins. Last week, we once again commemorated the 
lives of all the innocent victims lost on 9/11, the brave first 
responders, and dedicated recovery workers. The 9/11 
anniversary reminds us each year of the shock, sadness, and 
anger we all felt that morning.
    Our unity and strength following the attacks were palpable 
and encouraging also. Nothing the terrorists inflicted could 
defeat our Nation as a worldwide beacon of freedom and liberty.
    As part of our resolve, it is critical that tools to defeat 
terrorism remain available to the men and women of our national 
security and intelligence community, who work tirelessly to 
protect our country and to secure the freedoms that we cherish.
    Several of these tools are set to expire on December the 
15th. It is our duty to reauthorize these authorities. 
Otherwise, the authorities revert back to our national security 
posture before 9/11. I don't think anyone wants that.
    I am actually kind of glad we are actually having this 
hearing. It expires on December 15th, we could have been 
working on this a long time. I guess we have been busy with 
other things. We are at least having this hearing today.
    The Foreign Intelligence Surveillance Act was originally 
passed to protect Americans from surveillance abuses. Our 
national security apparatus surveillance regime offers the 
access to critical foreign intelligence that we need, but we 
must ensure that there is a balance in both protecting our 
security and our civil liberties. FISA was created to do that.
    In 2016, during and after the Presidential election, this 
balance appears to have broken down. While Democrats accused 
Republicans of simply trying to divert attention for political 
purposes, it is now clear that those at the pinnacle of our 
national security community lost all the objectivity that they 
were required by law to exercise. That is coming out now as we 
see a FISA report coming out soon.
    A necessary component for Americans' trust in the 
intelligence community is the perception of fairness, 
particularly when implementing surveillance against Americans. 
Like many Americans, I await the Inspector General Horowitz's 
report on potential FISA abuse from the Presidential election 
period. However, it is a fact that multiple individuals at the 
top of the FBI have either been fired, terminated, or even 
referred for and reported to be under criminal investigation, 
although that has seemed to escape the notice of the majority 
on this committee.
    Oversight and deterrence are clearly needed when the top-
level officials in our intelligence and law enforcement 
community are officially criticized and potentially even 
indicted for divulging sensitive information and lying. That 
said, today we face the reauthorization of authorities passed 
in 2015 as part of the USA FREEDOM Act focused on battling 
terrorism. Three provisions--Sections 215, Business Records; 
lone wolf; and roving wiretaps--must be reauthorized. It is 
admittedly difficult to separate our concerns on FISA abuse 
from reauthorization facing us, but we need to protect valuable 
tools in combating violent extremists and their evil goals.
    Two of the authorities are fairly straightforward, the lone 
wolf and roving wiretap provisions. The lone wolf provision 
essentially permits surveillance of terrorists seeking to harm 
us, even if there is no proof of the terrorist being directly 
connected to ISIS or al-Qaeda.
    Why? We know this has been a trajectory of terrorist attack 
where the perpetrators are not ``Members'' of these particular 
terrorist organizations but are inspired by their medieval 
ideologies.
    The roving wiretap provision allows the intelligence 
community to follow terrorists and spies who attempt to thwart 
or evade surveillance by dumping and switching phones. If we 
can do this for drug dealers, we should be able to do it for 
suspected terrorists.
    Regarding section 215, I look forward to hearing more from 
the FBI on their use of this authority. The ability to obtain 
business records, particularly in terrorist and foreign 
intelligence investigations, but also of suspected spies, is 
not something whose authority we can afford to let expire. 
However, section 215, as used for collecting call data records, 
however, has been significant and seemingly insurmountable 
technical problems in its implementation.
    We would like to hear from the NSA on their thoughts and 
the continuing validity of 215 for collecting CDRs.
    I would like to thank each of the agencies who are here 
this morning. I wish that more had been able to come this 
morning. I wish that we could do this, but in the spirit of 9-
1-1 and the countless other senseless terrorist attacks 
illustrate the need for our Nation to always be on guard. The 
authorities are set to expire in December. We have gotten to it 
now, thankfully. Despite the apparent misuse and abuse of other 
FISA authorities, are not the ones we should be removing from 
our counterterrorism toolbelt.
    I look forward to the witnesses' testimony, and I yield 
back.
    Chairman Nadler. I thank the gentleman.
    I will now introduce today's witnesses. Brad Wiegmann--and 
I pronounced that correctly? Brad Wiegmann is the Deputy 
Assistant Attorney General at the Department of Justice, 
National Security Division. Previously, he served in legal 
positions at the Department of Defense and State and at the 
National Security Council.
    He also served as a law clerk for Judge Patrick 
Higginbotham on the United States Court of Appeals for the 
Fifth Circuit. Mr. Wiegmann received his B.A. from Duke 
University and his J.D. from Harvard Law School.
    Michael Orlando is the Deputy Assistant Director at the 
Federal Bureau of Investigation's Counterterrorism Division. He 
entered duty as a special agent in the Pittsburgh field office 
in 2003 and has since worked on counterintelligence matters at 
the Honolulu, Baltimore, and Washington field offices. 
Previously, Mr. Orlando worked as the Assistant section Chief 
of East Asia Counterintelligence Investigations.
    Prior to working for the FBI, Mr. Orlando served in the 
U.S. Army. He received his B.A. from the State University of 
New York College at Cortland and received a Master's in 
Leadership from Georgetown University's McDonough School of 
Business.
    Susan Morgan has worked in NSA operations for 18 years.
    We welcome all our distinguished witnesses, and we thank 
them for participating in today's hearing.
    Now, if you would please rise, I will begin by swearing you 
in. Raise your right hand unless you are a lefty.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [Response.]
    Chairman Nadler. Thank you.
    Let the record show the witnesses answered in the 
affirmative. Thank you, and please be seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals your 5 minutes have expired.
    Mr. Wiegmann, you may begin.

                   TESTIMONY OF BRAD WIEGMANN

    Mr. Wiegmann. Chairman Nadler, Ranking Member Collins, 
Members of the committee, thank you for the opportunity to 
testify today about four important provisions of the Foreign 
Intelligence Surveillance Act, or FISA.
    These are authorities that will expire at the end of this 
year unless reauthorized by Congress. The Administration 
strongly supports permanent reauthorization of these 
provisions.
    Three of the authorities--the roving wiretap, business 
records, and lone wolf provisions--have been part of FISA for 
well over a decade. They have been renewed by Congress multiple 
times, most recently in the USA FREEDOM Act of 2015. Before 
that, these same authorities were reauthorized multiple times 
between 2005 and 2011, and each renewal gained bipartisan 
support.
    Today, I will give you a brief overview of these three 
legal authorities and then turn it over to my colleague from 
FBI to address how they have been used in practice and their 
value to national security. Then my colleague from NSA will 
address the fourth authority, the call detail records, or CDR 
authority, under which NSA can engage in targeted collection of 
telephony metadata in counterterrorism investigations.
    First, the roving wiretap authority. This enables the 
Government to continue surveilling a FISA court-approved 
national security target when the target is taking affirmative 
steps to thwart the surveillance. These are individuals who 
rapidly and repeatedly change communication service providers 
to evade Government monitoring.
    The roving provision allows us to continue surveillance 
without having to go back to the FISA court for a new order 
each time the target switches his phone. The Government has 
used this authority in a relatively small number of cases each 
year. The cases tend to involve highly trained foreign 
intelligence officers operating within the United States or 
other important investigative targets, including terrorism 
targets.
    The Wiretap Act has for decades contained a similar roving 
provision for ordinary criminal investigations of, say, drug 
dealers or organized crime figures.
    Second, the business records authority. This allows the 
Government to apply to the FISA court for an order to collect 
records, papers, and other tangible things that are relevant to 
a national security investigation. It allows the Government to 
obtain many of the same types of records that it can obtain 
through a grand jury subpoena in an ordinary criminal case.
    For example, it can be used to obtain driver's license 
records, hotel records, car rental records, shipping records, 
and the like. In most cases, these are records for the 
Government can be obtain in ordinary criminal or civil 
investigation without any court order.
    A FISA business records order is typically sought because 
national security interests preclude the use of the less secure 
criminal authorities or because there may be no criminal 
investigation underway in the intelligence context. This 
authority has been used several dozen times a year, on average, 
over the last several years.
    Now, the business records provision is also the mechanism 
for the targeted collection of CDRs from U.S. telecommunication 
service providers. As my colleague from NSA will discuss in a 
few minutes, this provision provides a way for the Government, 
pursuant again to a FISA court order, to identify telephone 
contacts of suspected terrorists who may be within the United 
States.
    Finally, the lone wolf provision. This enables the 
Government to surveil a foreign person who is engaged in 
international terrorism, but who lacks traditional connections 
to a terrorist group. It also applies to foreign persons 
engaged in international proliferation of weapons of mass 
destruction.
    Although the Government has not used the lone wolf 
authority to date, it fills an important potential gap in 
collection capabilities where isolated actors are concerned. It 
allows for the surveillance of a foreign terrorist who might be 
inspired by a foreign terrorist group, but who is not 
technically an agent of that group.
    So, for example, it would allow for surveillance of a 
foreign person who has self-radicalized through viewing 
propaganda of a foreign terrorist organization like ISIS or al-
Qaeda on the Internet or a known international terrorist who 
severs his connection with a foreign terrorist group.
    Use of any of these three authorities requires approval 
from the FISA court under standards prescribed in law. Each 
also requires strict rules governing how the Government must 
handle any information that is obtained concerning U.S. 
persons. Each also is subject to extensive executive branch 
oversight, as well as congressional reporting requirements and 
oversight. As I have said, each has been renewed by Congress 
multiple times in the past.
    With that, I will stop and turn it over to my colleagues.

                  TESTIMONY OF MICHAEL ORLANDO

    Mr. Orlando. Good morning, Chairman Nadler, Ranking Member 
Collins and Members of the committee.
    Chairman Nadler. Good morning.
    Mr. Orlando. Thank you for the opportunity to testify today 
about important provisions of the USA FREEDOM Act that will 
expire later this year unless reauthorized by Congress.
    These provisions have been integral to the FBI's success in 
many national security investigations. While I will likely not 
be able to get into specific examples of our use of these 
provisions in an open setting, I will do my best to provide you 
with thorough hypothetical use situations.
    I have seen these provisions throughout my time as both a 
counterintelligence agent and a counterterrorism agent. I am 
looking forward to answering your questions today.
    National security threats have evolved significantly in the 
last 20 years. From the proliferation of mobile smartphones to 
the expanded use of end-to-end encryption, new technology has 
allowed our threat actors to work increasingly in the shadows. 
Today, we have nearly universal access to the Internet, and 
anyone with a cell phone can view and become radicalized by 
extremist content.
    Our subjects are no longer forced to travel to other 
countries to communicate with other extremists who threaten the 
security of the United States. Instead, they can do this from 
their home. Because of this, we are also witnessing a shift 
toward individuals acting alone, with multiple ideologies and 
without clear ties to any one foreign adversary.
    Our window for identification and disruption is getting 
smaller. Our subjects are quickly moving from radicalization to 
mobilization.
    As these threats have evolved, Congress has helped us 
ensure we are prepared with the appropriate tools to continue 
to protect the U.S. and its interests. I am here today to talk 
about the expiring provisions, which the FBI uses with FISA 
court approval and oversight.
    As my colleague from the Department of Justice explained, 
we use the business records provision to obtain records or 
other tangible things for use in a national security 
investigation. We often describe the business records provision 
as a ``building block'' authority. That means we use it during 
the early stages of an investigation to build our case against 
national security threats.
    It is important to note the responses to the business 
records order do not contain content. If we see that the 
suspect is communicating with a known bomb maker in another 
country, for example, that is incredibly important information.
    As in this case, the information we get from business 
record orders often help us establish the legal threshold we 
need to reach to get an order from the FISA court for more 
advanced investigative techniques, such as a wiretap. For 
example, once we receive the business record returns that the 
suspected terrorist is communicating with a known bomb maker, 
we would have relevant information to help establish probable 
cause for a wiretap.
    Similarly, if we received business record returns showing 
that the suspect, the terrorist, is buying bomb-making 
materials like nitrogen-based fertilizer and large amounts of 
ball-bearings, that information can also help us establish 
probable cause.
    The roving authority detailed in the USA FREEDOM Act is 
also an important provision that counteracts efforts by various 
national security threats, including terrorists and 
intelligence officers, to avoid court-authorized surveillance. 
These individuals often employ tactics such as using multiple 
burner phones or regularly creating new email accounts.
    Without this roving authority, we would struggle to keep 
awareness of our targets as they purposely take action to 
thwart surveillance. We use this authority regularly in our 
national security investigations as a tool to avoid missing 
critical intelligence that would be lost if our ability to 
initiate surveillance was delayed.
    It is worth noting that the FBI only seeks roving authority 
when the requirements of the statute are met. That means we 
must provide information to show that the target's actions can 
have the effect of thwarting surveillance.
    The last authority the FBI requests you reauthorize is the 
lone wolf provision. While it has not been used since 
authorization, we believe it is important to have available.
    Homegrown violent extremists are among the FBI's top 
threats to the homeland. These individuals are, by definition, 
not in direct collaboration with foreign terrorist 
organizations. Homegrown violent extremists are often self-
radicalized online through terrorist propaganda and are 
motivated to attack with no direction from individuals 
associated with a foreign terrorist organization.
    The lone wolf provision is narrowly tailored to only allow 
use against non-U.S. persons, which gives the FBI an additional 
tool without impacting the rights of any U.S. person.
    These authorities are critically important in our fight to 
keep the American public safe. The FBI urges Congress to 
reauthorize these authorities because they will continue to 
play an important role in the FBI's national security 
investigations as our adversaries continue to advance.
    Thank you for the opportunity to appear before you today. I 
am happy to answer any questions related to these authorities.
    Chairman Nadler. Thank you very much. Ms. Morgan?

                   TESTIMONY OF SUSAN MORGAN

    Ms. Morgan. Good morning, Chairman, Ranking Member, 
distinguished Members of the committee.
    Thank you for the opportunity to testify today about the 
National Security Agency's Call Detail Records Program.
    The authority for the Call Detail Records, or CDR, Program 
is among the important provisions of the Foreign Intelligence 
Surveillance Act that will expire at the end of this year 
unless reauthorized by Congress.
    Congress added this authority to the Foreign Intelligence 
Surveillance Act 4 years ago in the USA FREEDOM Act, as one of 
several significant reforms designed to enhance privacy and 
civil liberties. It replaced NSA's bulk telephony metadata 
collection program with a new legal authority whereby the bulk 
metadata would remain with the telecommunication service 
providers.
    As this committee's 2015 report described, the CDR 
authority provides a ``narrowly tailored mechanism for the 
targeted collection of telephone metadata for possible 
connections between foreign powers or agents of foreign powers 
and others as part of an authorized investigation to protect 
against international terrorism.''
    Critically, the provision authorizes the collection of 
certain metadata associated with telephone calls, such as the 
originating or terminating telephone number and date and time 
of a call, but does not authorize collecting the content of any 
communication, the name, address, or financial information of a 
subscriber or customer, or locational information.
    As this Committee is aware, the NSA recently discontinued 
the CDR program and deleted the records acquired under the CDR 
authority after balancing the program's intelligence value, 
associated costs, and compliance and data integrity concerns.
    NSA's decision to suspend the CDR program does not mean 
that Congress should allow the CDR authority to expire. Rather, 
that decision shows that the executive branch is a responsible 
steward of the authority Congress affords it.
    As technology changes, our adversaries' tradecraft and 
communication habits continue to evolve and adapt. In light of 
this dynamic environment, NSA supports reauthorization of the 
CDR provision so that the Government will retain this 
potentially valuable tool, should it prove useful in the 
future.
    Thank you again for the opportunity to testify today. I 
look forward to your questions.
    [The joint statement of Mr. Wiegmann, Mr. Orlando, and Ms. 
Morgan follows:]

 JOINT STATEMENT OF BRAD WIEGMANN, MICHAEL ORLANDO, AND SUSAN 
                             MORGAN

                          Introduction

    Chairman Nadler, Ranking Member Collins, distinguished 
Members of the Committee, thank you for the opportunity to 
testify today about four important provisions of the Foreign 
Intelligence Surveillance Act (``FISA'') that will expire at 
the end of this year unless reauthorized by Congress. As 
indicated in the Director of National Intelligence's letter to 
this Committee, the Administration strongly supports permanent 
reauthorization of these provisions.
    Three of the authorities--the roving wiretap, business 
records, and lone wolf provisions--have been part of FISA for 
well over a decade and have been renewed by Congress multiple 
times, most recently in the USA FREEDOM Act of 2015 (``FREEDOM 
Act''). Before that, these same authorities were reauthorized 
multiple times between 2005 and 2011, each time following 
extensive congressional review and deliberation. Each renewal 
gained bipartisan support.
    Two of the authorities, the ``roving wiretap'' and 
``business records'' provisions, have been part of FISA since 
2001. These provisions are important in national security 
investigations and are comparable to provisions available in 
ordinary criminal investigations. The roving wiretap authority 
enables the Government to continue surveilling a court-approved 
national security target when the target takes steps to thwart 
the surveillance. The business records authority allows the 
Government to collect records, papers, and other documents that 
are relevant to a national security investigation. The 
Government has used these important national security 
authorities judiciously, with the approval of the Foreign 
Intelligence Surveillance Court (``FISC''), and in the interest 
of national security.
    The ``lone wolf'' provision was added to FISA in 2004 to 
close a gap in the Government's ability to surveil a foreign 
person who is engaged in international terrorism or 
international proliferation of weapons of mass destruction, but 
who lacks traditional connections to a terrorist group or other 
foreign power. Without the authority, the Government could not 
rely on FISA to respond to those kinds of threats. Although the 
Government has not used the lone wolf provision to date, it is 
critical this authority remain in the Government's toolkit for 
the future, as international terrorist groups increasingly seek 
to inspire individuals to carry out attacks, without 
necessarily providing the kind of coordination or support that 
would authorize traditional FISA surveillance.
    The fourth authority--the Call Detail Records (``CDR'') 
provision--permits the targeted collection of telephony 
metadata but not the content of any communications. Congress 
added this authority to FISA four years ago in the FREEDOM Act 
as one of several significant FISA reforms designed to enhance 
privacy and civil liberties. It replaced the National Security 
Agency's (``NSA'') bulk telephony metadata collection program 
with a new legal authority whereby the bulk metadata would 
remain with the telecommunications service providers. As this 
Committee's 2015 report described, the CDR authority provides a 
``narrowly-tailored mechanism for the targeted collection of 
telephone metadata for possible connections between foreign 
powers or agents of foreign powers and others as part of an 
authorized investigation to protect against international 
terrorism.'' H. Rep. 114-109, at 17 (2015). The FREEDOM Act 
also permanently banned bulk collection under FISA's business 
records and pen-trap provisions and under the National Security 
Letter statutes. As this Committee is aware, the NSA recently 
discontinued the CDR program for technical and operational 
reasons. But the CDR program retains the potential to be a 
source of valuable foreign intelligence information. The CDR 
program may be needed again in the future, should circumstances 
change. NSA's careful approach to the program, and the legal 
obligations imposed by the FREEDOM Act in the form of judicial 
oversight, legislative oversight, and transparency, support the 
reauthorization of the CDR program.
    We urge the Committee to consider permanently reauthorizing 
these authorities based not only on the Government's 
demonstrated record and the importance of the authorities to 
national security, but also on the significant reforms 
contained in the FREEDOM Act. These include authorizing the 
FISC to appoint amici curiae to address privacy and civil 
liberties concerns and enhancing public transparency and 
reporting requirements under FISA. Four years ago, the FREEDOM 
Act was passed after extensive oversight and comprehensive 
hearings, and it was reported out of this Committee with 
unanimous support. In the wake of repeated reviews and 
bipartisan authorizations over nearly two decades, the 
Administration's view is that the time has come for Congress to 
extend these authorities permanently.

                         Roving Wiretap

    First, Congress should permanently reauthorize the ``roving 
wiretap'' provision. The authority outlined in this provision 
is similar to the roving wiretap authority that has been 
available since 1986 in criminal investigations, under the 
Wiretap Act, and which has repeatedly been upheld in the 
courts.
    The ``roving wiretap'' provision provides the Government an 
effective tool to use in response to adversaries attempting to 
thwart detection. To understand the importance of this 
authority, the Committee must consider how FISA functions in 
ordinary, non-roving cases, and how roving authority is 
necessary for targets who try to avoid surveillance. Under both 
regular and roving FISA authority, the Government's application 
for a court order must identify the target of the surveillance 
with particularity and must establish probable cause that the 
target is a foreign power or an agent of a foreign power. If 
the Court approves the application, it issues one order to the 
Government and a ``secondary'' order to a third-party--such as 
a telephone company--directing it to assist the Government in 
conducting the wiretap. See 50 U.S.C. 1805(c)(1-2). The 
secondary order is necessary because, in most cases, the 
Government needs the assistance of a company to implement the 
surveillance. In an ordinary case, if the target switches to a 
new communications service provider, the Government must submit 
a new application and obtain a new set of FISA orders. However, 
where the Government can demonstrate in advance to the FISA 
Court that the target's actions may have the effect of 
thwarting surveillance, such as by rapidly and repeatedly 
changing providers, FISA's roving wiretap provision allows the 
FISC to issue a generic secondary order that the Government can 
serve on the new provider to commence surveillance without 
first going back to the Court. See 50 U.S.C. 1805(c)(2)(B). The 
Government's probable cause showing that the target is an agent 
of a foreign power remains the same, and the Government must 
also demonstrate to the FISC, normally within 10 days of 
initiating surveillance of the new facility, probable cause 
that the specific target is using, or is about to use, the new 
facility. See 50 U.S.C. 1805(c)(3).
    The roving wiretap authority has proven to be an important 
intelligence-gathering tool. The Government has used the 
authority in a relatively small number of cases each year. 
Those cases tend to involve highly-trained foreign intelligence 
officers operating within the United States, or other important 
investigative targets, including terrorism-related targets, who 
have shown a propensity to engage in activities deliberately 
designed to thwart surveillance. Similar authority designed to 
prevent suspects from thwarting surveillance has been a 
permanent part of our criminal law for over thirty years, and 
this provision has been renewed as part of FISA repeatedly 
since 2001 without controversy or evidence of abuse. It remains 
an important tool, and we strongly support permanent 
reauthorization.

                        Business Records

    Second, we also support permanent reauthorization of the 
so-called ``business records'' provision, which was enacted as 
section 215 of the USA PATRIOT Act in 2001. This provision 
authorizes the Government to apply to the FISC for an order 
directing the production of business records or other tangible 
things that are relevant to an authorized national security 
investigation. It allows the Government to obtain in a national 
security investigation many of the same types of records and 
other tangible things that the Government can obtain through a 
grand jury subpoena in an ordinary criminal investigation. The 
Government has used the business records provision to obtain, 
for example, driver's license records, hotel records, car 
rental records, apartment leasing records, and the like. An 
application for such records, and other sensitive records, must 
come from the FBI Director, Deputy Director, or Executive 
Assistant Director. See 50 U.S.C. 1861(a)(3).
    Importantly, the business records provision contains 
several statutory safeguards. To obtain a FISC order approving 
a business records application, the Government must make a 
showing to the FISC that (1) it is seeking information in an 
authorized national security investigation conducted pursuant 
to guidelines approved by the Attorney General; (2) where the 
investigative target is a U.S. person, the Government has 
demonstrated that the investigation is not based solely on 
activities protected by the First Amendment; and (3) the 
Government must demonstrate that the information sought is 
relevant to the authorized investigation. See 50 U.S.C. 1861(a)
(1-2). The Government must also adhere to Attorney General 
guidelines and minimization procedures that limit the retention 
and dissemination of any information collected concerning U.S. 
persons. Id. 1861(a)(2)(A) & (g). Recipients of an order 
seeking business records also have the opportunity to challenge 
the legality of the order in court, although, to date, no 
recipient has done so.
    Some criticize the business records provisions as running 
afoul of the Fourth amendment because business records orders 
are not issued under a ``probable cause'' standard. But an 
order issued under the business records provision does not 
authorize the Government to enter premises, or to search for or 
seize records or other tangible things. Thus, the Fourth 
Amendment's probable cause standard generally does not apply. 
Rather, the records the Government is authorized to obtain--
pursuant to a FISC order--are similar to those that the 
Government could obtain in ordinary criminal or civil 
investigations--without any court order in most instances--
pursuant to a grand jury subpoena in an ordinary criminal case, 
or pursuant to an administrative subpoena in a civil case. Like 
a grand jury subpoena or an administrative subpoena, a business 
records order merely requires the recipient to identify and 
produce responsive records or other tangible things.
    Critics have also questioned the need for the business 
records provision in view of the Government's ability to seek 
similar records pursuant to a grand jury subpoena. But not 
every national security investigation involves criminal 
activity; thus, a grand jury subpoena is not always available 
to the Government. Additionally, business records orders issued 
by the FISC are often supported by classified information that 
cannot be disclosed to the grand jury and cannot be 
declassified without compromising important national security 
interests. Thus, reauthorization of this provision remains 
critically important.
    To be sure, this authority has generated substantial 
controversy because it was employed, with FISC approval, to 
support NSA's bulk telephony metadata collection program. 
However, that program has been terminated and replaced by the 
more targeted collection of telephony metadata authorized under 
the CDR provisions of the FREEDOM Act, as discussed below. The 
FREEDOM Act permanently banned bulk collection altogether under 
the business records authority and required the use of a 
``specific selection term'' to justify an application for a 
business records order. The law defines ``specific selection 
term'' as a term that ``specifically identifies a person, 
account, address, or personal device, or any other specific 
identifier [that] is used to limit, to the greatest extent 
reasonably practicable, the scope of tangible things sought, 
consistent with the purpose for seeking the tangible things.'' 
50 U.S.C. 1861(k)(4)(A)(i). It does not include terms, or a 
combination of terms, that are not so limited. See id. 
1861(k)(4)(A)(ii). Moreover, the FREEDOM Act provided that the 
FISC may evaluate the adequacy of minimization procedures 
issued under the business records provisions, and may require 
additional, particularized minimization procedures beyond those 
otherwise required, with regard to the production, retention, 
or dissemination of certain business records, including 
requiring the destruction of such records within a reasonable 
period of time. See id. 1861(g)(3).
    The Government has used the business records authority 
judiciously. On average, between 2015 and 2018, the Government 
sought and obtained records under this provision less than 76 
times per year. The number of business records applications 
approved has decreased every year since 2012. Many of these 
investigations seek records that are outside the scope of the 
National Security Letter statutes, and often a business records 
order is sought because national security interests preclude 
the use of less secure criminal authorities, or because there 
may be no criminal investigation underway. Given the importance 
of the authority, the absence of any evidence of abuse, and the 
additional safeguards Congress imposed in 2015, we urge the 
Committee to support permanent reauthorization of this 
provision.

                           Lone Wolf

    The third expiring provision is the so-called ``lone wolf'' 
provision of FISA. It allows the FISC to authorize surveillance 
of non-United States persons engaged in international terrorism 
or the international proliferation of weapons of mass 
destruction, without the need to show that the target is acting 
on behalf of a particular terrorist group or other foreign 
power.
    The ``lone wolf'' provision is contained within the 
definition of an ``agent of a foreign power'' in FISA. 
Electronic surveillance under FISA can only be directed at a 
``foreign power'' or ``agent of a foreign power,'' as defined 
in the statute. See 50 U.S.C. 1804(a)(3)(A). A foreign power 
under FISA is defined for counterterrorism purposes to include 
a group engaged in international terrorism. Accordingly, 
without the lone wolf provision, the Government would need to 
establish that a terrorism-related surveillance target was an 
agent of an international terrorist group. The lone wolf 
provision specifies that a foreign individual is also 
considered an ``agent of a foreign power'' under FISA if the 
individual is engaged in international terrorism--even if the 
individual is not directly connected to a foreign terrorist 
group.
    There are two key points to understand about this 
provision. First, it applies only to non-U.S. persons (not to 
American citizens or aliens lawfully admitted for permanent 
residence), see 50 U.S.C. 1801(b)(1)(C), and second, only when 
they engage or prepare to engage in ``international 
terrorism,'' see id. 1801(c). In practice, to establish the 
probable cause necessary to secure a FISC order under the lone 
wolf provision, the Government must know a great deal about the 
target, including the target's purpose and plans for terrorist 
activity, to satisfy the definition of ``international 
terrorism.''
    Although the Government has not used the lone wolf 
authority to date, it fills an important gap in the 
Government's collection capabilities. The provision allows for 
the surveillance of a foreign terrorist who might be inspired 
by a foreign group, but who is not technically an agent of that 
group. For example, the provision would allow for surveillance 
of a foreign person who has self-radicalized through internet 
propaganda of a foreign terrorist organization, or a known 
international terrorist who severs his connection with a 
terrorist group. The Government's decision not to employ this 
authority to date does not mean that it should be abandoned. To 
the contrary, it shows that the Government will use this 
provision only where necessary and legally available. Terrorist 
groups like ISIS and al-Qaida actively seek to encourage lone 
wolf attacks. The continued availability of the lone wolf 
provision ensures the Government retains the authority to 
surveil isolated foreign terrorist actors who are inspired, but 
not directed by, foreign terrorist groups.

                      Call Detail Records

    Finally, as we have explained, in addition to reauthorizing 
these longstanding provisions of FISA in 2015, the FREEDOM Act 
banned bulk collection and established a new, narrowly-tailored 
mechanism for the targeted collection of CDRs from U.S. 
telecommunications service providers. The new provisions were 
enacted after comprehensive oversight, including hearings 
addressing recommendations of a presidentially-appointed group 
of outside experts and the Privacy and Civil Liberties 
Oversight Board, which weighed in on the privacy and civil 
liberties effects of the authorities and their importance to 
national security.
    The CDR provision represents a carefully tailored balance 
between the interest in individual privacy and the need to 
protect against the activities of international terrorist 
groups. In support of an authorized counterterrorism 
investigation, the CDR authority provides a way for Government 
investigators, pursuant to a FISC order, to identify contacts 
of suspected terrorists who may be within the United States. It 
permits the Government to seek an order from the FISC 
compelling the production on an ongoing basis of CDR 
information based on a specific selection term, such as a 
telephone number. The Government must demonstrate to the FISC 
that (1) there are reasonable grounds to believe that the data 
sought is relevant to an authorized counterterrorism 
investigation; and (2) there is a reasonable, articulable 
suspicion that the specific selection term is associated with a 
foreign power or an agent of a foreign power engaged in 
international terrorism or activities in preparation of 
international terrorism. See 50 U.S.C. 1861(b)(2)(C). 
Critically, the provision authorizes the collection of certain 
metadata associated with telephone calls, such as the 
originating or terminating telephone number and date and time 
of a call, but does not authorize collecting the content of any 
communication, the name, address, or financial information of a 
subscriber or customer, or cell site location or global 
positioning system information. See id. 1861(k)(3). With FISC 
approval, the Government may require the production of CDRs two 
``hops'' from the seed term--i.e., the CDR's associated with 
the initial specific selection term and those associated with 
the CDRs identified in the initial ``hop.'' See id. 
1861(c)(2)(F).
    The Government has used this authority responsibly. In 
2018, the NSA identified certain technical irregularities in 
data it received from telecommunications service providers 
under the CDR provision. Because it was not feasible for NSA to 
resolve the issue technologically, in May of 2018, NSA began 
the process of deleting all CDR data that it had received since 
2015. Then, after balancing the program's intelligence value, 
associated costs, and compliance and data integrity concerns 
caused by the unique complexities of using these company-
generated business records for intelligence purposes, NSA 
suspended the CDR program.
    NSA's decision to suspend the CDR program does not mean 
that Congress should allow the CDR authority to expire. Rather, 
that decision shows that the Executive Branch is a responsible 
steward of the authority Congress afforded it, and that the 
numerous constraints on the Government imposed by the FREEDOM 
Act, including oversight by the FISC, are demanding and 
effective. As technology changes, our adversaries' tradecraft 
and communications habits continue to evolve and adapt. In 
light of this dynamic environment, the Administration supports 
reauthorization of the CDR provision so that the Government 
will retain this potentially valuable tool should it prove 
useful in the future.
    The Administration looks forward to working with this 
Committee and the rest of the Congress to reauthorize on a 
permanent basis these important national security provisions.

    Chairman Nadler. Thank you very much for your testimony.
    We will now proceed under the 5-minute Rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Ms. Morgan, I want to ask you about the Call Detail Records 
Program. In 2014, prior to the passage of the USA FREEDOM Act, 
the Privacy and Civil Liberties Oversight Board reviewed the 
efficacy of the NSA's use of section 215 to collect ``detail 
records.''
    The board concluded rather starkly, and I quote, ``We have 
not identified a single instance involving a threat to the 
United States in which the telephone records program made a 
concrete difference in the outcome of a counterterrorism 
investigation. Moreover, we are aware of no instance in which 
the program directly contributed to the discovery of a 
previously unknown terrorist plot or the disruption of a 
terrorist attack.''
    The board continued, ``Even in those instances where 
telephone records collected under section 215 offered 
additional information about the contacts of a known terrorism 
suspect, in nearly all cases, the benefits provided have been 
minimal, generally limited to corroborating information that 
was obtained independently by the FBI.''
    In short, the board found this very complicated program to 
be of very little use to the intelligence community.
    Ms. Morgan, is there any reason to doubt the accuracy of 
the board's conclusions in 2014?
    Ms. Morgan. Sir, thank you. Thank you for your question.
    So, I just want to start out by saying I think a metric in 
terms of determining the value of a particular intelligence 
program, the number of attacks it has prevented, is but one 
metric, or the number of attacks it has contributed to 
identifying is but one metric that you could consider, but it 
is certainly not the only metric.
    I came into the agency in the summer of 2001 as an 
intelligence analyst, and I could tell you that as an 
intelligence analyst, you are typically dealing with disparate 
pieces of information, and you are trying to pull them together 
in different ways to create a picture to understand what your 
target or adversary might be doing in response to a valid 
foreign intelligence requirement.
    So, when we looked at the CDR program, as it existed up 
until we suspended it, we did look and evaluate the foreign 
intelligence value that the program did provide. It did 
certainly provide value.
    However, you have to weigh that in the context of 
everything else that we are doing, and you have to weigh that 
against not only the data integrity and compliance concerns 
that we face, but you also have to weigh that against the 
resources and the costs that we are expending, as we want to be 
a good steward of the taxpayers' dollars and resources.
    So, I would say that it is very difficult to--it is not 
ever a black-and-white answer when you are trying to analyze 
the value of a particular activity. There is a lot of factors 
that go into that, and I could get a piece of information today 
that 7 or 10 or 11 steps down the line later might actually 
prove to be really valuable.
    Chairman Nadler. The CDR program was reconstituted under 
the USA FREEDOM Act after its passage in 2015. Now please help 
me update the board's findings. Sitting here today, can the NSA 
cite any instance involving a threat to the United States in 
which the CDR program made a concrete difference in the outcome 
of a counterterrorist investigation?
    Ms. Morgan. Sir, as I alluded to earlier, the measure of 
value isn't necessarily--
    Chairman Nadler. The--
    Ms. Morgan. Yes, sir?
    Chairman Nadler. I heard that. You don't have to repeat it. 
My time is limited. So, the answer is no or yes?
    Ms. Morgan. In an open setting, I am really leery to get 
into specific examples of the value that the program--
    Chairman Nadler. I asked you a specific question.
    Ms. Morgan. Yes, sir.
    Chairman Nadler. Can the NSA cite any instance involving a 
threat to the U.S. in which the CDR program made a concrete 
difference in the outcome of a counterterrorist investigation?
    Ms. Morgan. Sir, respectfully, I would say that is a 
complicated question that to effectively answer it, I need to 
go into classified information.
    Chairman Nadler. Okay. Is the NSA aware of any instance in 
which the program directly contributed to the discovery of a 
previously unknown terrorist plot or the disruption of a 
terrorist attack? Same answer?
    Ms. Morgan. Again, sir. I would like to, if I may?
    Chairman Nadler. Go ahead.
    Ms. Morgan. I would like to say that I don't think a metric 
of a program in terms of its value should be really necessarily 
focused on whether or not it prevented or stopped a terrorist 
attack.
    Chairman Nadler. Okay. After the CDR program was 
reconstituted under the USA FREEDOM Act, the NSA realized it 
had two problems on its hands. First, it was pulling in phone 
records that it should not have received, and second, it had no 
way of untangling the good data from the bad. Is that a fair 
assessment of the problem?
    Ms. Morgan. Yes, sir.
    Chairman Nadler. On June 28th of last year, the NSA decided 
to purge its entire database, nearly 3 years of call detail 
records. Is that correct?
    Ms. Morgan. Yes, sir.
    Chairman Nadler. In the press release announcing the 
destruction of those records, the NSA stated that it had 
contacted the appropriate congressional committees of its 
intent to do so. Do you happen to know if the NSA contacted the 
House Judiciary Committee in advance of that press release?
    Ms. Morgan. Sir, I apologize. I have to take that back. I 
don't have those specifics.
    Chairman Nadler. Okay. On August 16, 2019, the NSA 
decommissioned the CDR program altogether. According to former 
Director Coats, the intelligence community weighed the costs 
against the benefits, saw that the benefits are minimal, and 
decided to discontinue the program. Is that correct?
    Ms. Morgan. Yes, sir.
    Chairman Nadler. Okay. To sum up, the CDR program had its 
origins in an extralegal, Bush-era spying program. From the 
moment it was brought under FISA--from the moment it was 
brought under FISA in 2006 to the moment it was discontinued in 
2019, it did not once make a material difference to a single 
counterterrorism investigation, at least that you can tell us 
about.
    One last question, Ms. Morgan. Why has the Trump 
Administration asked us to reorganize--I am sorry. In light of 
this record, why has the Administration asked us to reauthorize 
this program?
    Ms. Morgan. Sir, as an intelligence professional, I will 
tell you that I want to have every tool available in my 
toolbox. I am not able to, although I wish I could, predict 
what the future situation is going to hold. Should I confront a 
situation where this tool would valuable to protect 
international security, protect us against terrorist 
activities, I would like the tool to remain available.
    Chairman Nadler. Okay. Let me just say that is a very good 
effort, but I think the Administration will have to do a little 
better than that, than to say that we have a perhaps useless 
program, but we want to reauthorize it because maybe some day 
it will do some good. Have to give it some more basis to 
believe, in fact, that it has a future utility.
    My time is expired. The gentleman from Georgia, Mr. 
Collins.
    Mr. Collins. Take as much time as you need there, Mr. 
Chairman. You did yesterday.
    One of the things I want to point out, Ms. Morgan, is 
normally we have had the secure--or exec session or a 
classified briefing after this. We don't have that today. So, I 
understand your questions here. I don't know why we didn't, but 
we are choosing not to do that today.
    We have done this in the past, and it would have been good 
to have. I think you would probably have been able to answer 
questions in classified briefings much better.
    I do appreciate Chairman actually acknowledging me for my 5 
minutes today, and I appreciate that.
    What the session--Ms. Morgan, what session-identifying 
information collected under the Call Detail Records Program, if 
we terminate that and allow the program to fast-forward expire, 
a terrorist decides to communicate over encrypted app, is the 
ability to collect session-identifying information lost with 
respect to encrypted communications?
    Ms. Morgan. Sir, I apologize. In an open hearing, I can't 
get into capabilities--
    Mr. Collins. Thus, the reason it would have been nice to 
have had a classified hearing after this as well, which we 
could have gotten into this.
    Ms. Morgan. Sir, I am absolutely willing to arrange for a 
time that is convenient for you and the rest of the Committee 
to talk about this in a classified--
    Mr. Collins. Now that is fine. We have had all year, and we 
are here now. You know, I guess we just have to deal with it. 
So that is fine.
    Mr. Wiegmann, does the criminal Brady requirement imposed 
on prosecutors to divulge exculpatory evidence favorable to the 
defendant also apply when practicing before a FISA court? In 
other words, even though the proceedings are ex parte, is there 
any requirement from the Department to inform the court of 
evidence favorable to the target of the FISA surveillance that 
could Act to initiate a probable cause that the person is an 
agent of a foreign power?
    Mr. Wiegmann. I believe we do provide the full picture in 
terms of what the information is available when we are applying 
you are saying regular Title I FISA. For example, we provide 
the full picture, and that would include it is not really Brady 
as a principle. Because that is a principle of applicability in 
a criminal case, not in a FISA application.
    We do disclose, I think as an ordinary course, to the court 
the information that would suggest the person is an agent and 
any information that suggests the contrary. I believe that is 
our practice.
    Mr. Collins. So, if you didn't disclose exculpatory 
information, you chose to keep it as beginning to be more, this 
is a very real concern because that is lying to the court. 
Correct?
    Mr. Wiegmann. Really, you would have to know the facts of 
that particular case to--
    Mr. Collins. Well, if you had exculpatory information, you 
didn't, as you just said, provide a full picture to the court. 
If you don't provide a full picture, would that not be a 
problem?
    Mr. Wiegmann. I think the effort is to provide a full 
picture to the court, but not to conceal any information from 
the court.
    Mr. Collins. Not my question. Not my question. Not the 
effort. If it happened, is that a problem? Is that something 
that you would not say should happen?
    Mr. Wiegmann. In general, I think we would want to provide 
all the information, all the relevant information to the court. 
Absolutely, sir.
    Mr. Collins. Okay. So, in general, you say it is okay. In 
cases where you don't want to disclose it, you say it is okay?
    Mr. Wiegmann. No, sir. No, sir. Maybe I misspoke in saying 
in general. I do believe we should disclose all relevant 
information to the court in applying for a FISA.
    Mr. Collins. If that is not, that is abuse of the court 
process?
    Mr. Wiegmann. I don't know if I would use those exact 
terms, but it is something that we work--
    Mr. Collins. What would you call it?
    Mr. Wiegmann. Well, it is something that we work hard to do 
at DOJ, to provide all the information relevant to the court.
    Mr. Collins. If it did not happen and to any court, even 
this court as well, if it did not happen, that is a failure. 
Correct?
    Mr. Wiegmann. It is something that we don't want to happen.
    Mr. Collins. A failure. The elephant in the room is the 
Carter Page FISA, the surveillance sought and obtained by both 
the FBI and DOJ on the Presidential campaign volunteer. Have 
you conducted a Woods review of the Carter Page FISA to 
determine whether each and every fact was verified by some 
underlying evidence? And has anyone ever been held accountable 
for unlawful disclosure of the Carter Page FISA application to 
the media?
    Mr. Wiegmann. Sir, I really can't comment on that in any 
way. Among other reasons, I don't know anything about that 
particular case. So, I can't comment on it today.
    Mr. Collins. You are not saying that my question just prior 
to this also hits at this very issue as well? This is an issue 
that is now not a secret court issue. This is not some--this 
has actually been put into the realm of the public and the 
media, if you are not using the information completely in a 
file.
    Mr. Wiegmann. I am not sure what your question is.
    Mr. Collins. I understand you are not going to answer it 
either way. The problem is, though, and I think Chairman and I 
both do agree on some things, and this is one of the areas we 
agree, that there is a problem with the FISA. We have just not 
talked about it this year because it is not in the political 
narrative we are talking about.
    There is a problem here that needs to be addressed. There 
has to be all and complete evidence brought to the FISA court, 
not just in general, as you said. I appreciate your concern of 
misspeaking.
    The issue here is that we have got to make sure that this 
is a process which is open for everybody. Because there is not 
a person listening to this hearing today, whether apolitical or 
very political, this is not something we need to have the 
probability at the highest level of our intelligence 
communities and DOJ to have a political agenda or leave out 
stuff when they go to a court in which there is ex parte 
proceedings and not anybody available to correct that or to 
correct the record.
    Then to actually have it leaked later in a sense in which 
no accountability has taken place so far. I think this is the 
issue.
    I will go back. Hopefully, at some point, we will get a 
classified briefing, but my time has expired. I yield back.
    Chairman Nadler. Let me just say that the minority staff 
worked with the majority staff in setting up this hearing, and 
the minority staff has been working with the majority staff in 
setting up a classified briefing, which will be scheduled.
    Mr. Collins. Again, Mr. Chairman, I appreciate that. Also 
at a certain time, it has always been scheduled together, where 
we could have all of our stuff together and the witnesses here. 
I was just pointing out a simple fact.
    I appreciate Chairman feeling he had the need to discuss 
the bipartisanship, which was so evident on this, but so 
lacking yesterday.
    Chairman Nadler. Well, I have also commented I am not aware 
of any terrible problem with the FISA court and specifically 
not with the Carter Page application.
    Mr. Collins. Because we have not talked about it until 
today. I would move on.
    Chairman Nadler. Yes. The gentlelady from California?
    Ms. Lofgren. Thank you, Mr. Chairman.
    You know, being in this room reminds me of after 9/11, and 
we actually came in on the weekend, and we sat around the table 
that you are--the witness table, and Mr. Sensenbrenner was 
chair of the committee. It was a bipartisan group, trying to 
figure out what are we going to put together.
    I participated in that, and we came up with a bill. We 
didn't know how it would work at the time, but we knew we 
needed to do some things, and we did as a bipartisan group. It 
is entirely appropriate that we review what we did so long ago 
to make sure that it is working as we had hoped. It is 
obviously an important balance.
    I mean, we need to keep our country safe. Everyone agrees 
with that. We also have strong incentive to make sure that the 
rights of Americans are fully protected and respected. I know 
that all of you would agree with that.
    One of the questions that I have on these proceedings is 
how the court rulings having to do with privacy are integrated, 
if at all, into your proceedings. For example, the recent 
Supreme Court decision in Carpenter really challenged and 
overturned the predigital age notions of the kinds of 
information that Americans have a Fourth amendment right to 
privacy in.
    Prior to Carpenter, law enforcement considered cell site 
geolocation data to be a business record and stored under the 
Communications Act. It didn't require a probable cause warrant. 
Now Carpenter, you need a probable cause warrant.
    Has that been translated into the same kind of records as 
215 would allow? Do you need probable cause to get geolocation 
records, as we do in the criminal matter? Who can answer that?
    Mr. Wiegmann. Yes, I can take that. So, you are absolutely 
right. The Carpenter decision, an important decision that in 
the context of a criminal case held that you needed a warrant 
in order to obtain historic cell site location information. So, 
that is not the same as GPS.
    Ms. Lofgren. Correct.
    Mr. Wiegmann. Iformation concerning a cell tower and so 
forth. So, they specifically in that Supreme Court case 
distinguished the national security context and said the ruling 
was only applicable in the context of a criminal case.
    Ms. Lofgren. I understand that. I understand.
    Mr. Wiegmann. We have given some thought to the issue of, 
okay, how does the Carpenter case apply in, let us say, the 
business records context? To really go into the detail, 
unfortunately, as to how we are applying it in that context, I 
would have to get into classified information, but I am happy 
to do that and provide that information to you as to what our 
policy is with respect to business records and how Carpenter 
applies to it.
    So, again, I am happy to do that for you, simply.
    Ms. Lofgren. So, if I can just probe, what you are saying 
is you are looking at it. It is not the belief of the 
Department that Carpenter actually applies to what you are 
doing, but that you are considering the Fourth amendment 
implications for what--how you are proceeding. Would that be 
accurate?
    Mr. Wiegmann. I think it is a fair summary to say it is not 
controlling, but certainly something that we are giving 
serious--have given serious thought to in terms of how we apply 
it to our national security authorities, even though it is not 
controlling.
    Ms. Lofgren. You know, one of the things that I have had 
concern about is the collection of content under various 
provisions of our FISA efforts, and I do think it is important 
to note that if you get enough information, even if it is not 
called content, it actually provides tremendous insight into 
the details of privacy rights of Americans.
    Can you, Ms. Morgan, talk about how much content that you 
obtain through this program?
    Ms. Morgan. Thank you for the question, ma'am.
    So, I just want to emphasize that under NSA's program, the 
Call Detail Records Program, we don't receive any content at 
all. We receive things like ``Telephone number A called 
telephone number B at this date and time for this duration.''
    That is--we are not receiving any content, and we are not 
receiving any locational information either.
    Ms. Lofgren. Let me ask in terms of--and maybe you can't 
answer this in a public session. In terms of text messages, 
pictures, emails, and the like, what is the universe of what 
you are collecting?
    Ms. Morgan. So, ma'am, again, under the CDR program, under 
the USA FREEDOM Act, we are not collecting any content. I am 
happy in a closed session to give you more insight into--
    Ms. Lofgren. Right. Under 215, none of that would be 
collected?
    Ms. Morgan. I will speak to NSA CDR provision. We are not 
collecting any content.
    Mr. Wiegmann. It is a little bit trickier in the context of 
the traditional uses of 215 because whether you call something 
content, like so is a driver's license record content or not? 
It is certainly substantive information. It is a third-party 
business record.
    Ms. Lofgren. Yes.
    Mr. Wiegmann. It has the information about the individual, 
or that a terrorist or suspected terrorist stayed at particular 
hotel on a particular night, that is the type of information 
that we may get.
    Ms. Lofgren. So under business records, you would get all 
of that?
    Mr. Wiegmann. That is right. We would get that information. 
It is not that it is not communications content, if that is 
what you are thinking.
    Ms. Lofgren. I understand.
    Mr. Wiegmann. We can't get substance of telephone calls or 
anything like that.
    Ms. Lofgren. My time has expired, Mr. Chairman. I thank 
you.
    Hopefully, as we will when we originally crafted these 
measures, we all care about civil liberties. We will craft 
together amendments to it.
    I yield back.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Ohio?
    Mr. Chabot. Thank you, Mr. Chairman. Thank you for holding 
this oversight hearing so that we can get a better 
understanding of FISA provisions and procedures, some of which 
expire in a few months on December 15th.
    For nearly a year since the start of this Congress, the 
majority has had this Committee and the American public endure 
their issuance of subpoena after subpoena, holding hearing 
after hearing, and passing resolution after resolution 
regarding an investigation that has long been completed by 
Special Counsel Robert Mueller.
    Yesterday, Corey Lewandowski appeared before our Committee 
for several hours and again answered questions. He has already 
testified before Congress a number of times, but the result 
remains the same. The President neither conspired nor colluded 
with the Russians to impact or influence the 2016 presidential 
election.
    Now the Russians did try to interfere. They set up fake 
Facebook accounts, et cetera, but that was under the Obama 
Administration's watch, not Trump's. So if there was 
insufficient effort to protect America from the Russians, it 
was Obama's fault, not Trump's.
    Today, the American people might finally get some insight 
on how the original FISA application that then-FBI Director Jim 
Comey and other senior FBI officials obtained at the behest of 
the Democratic Committee and the Hillary Clinton campaign, how 
that began.
    Mr. Orlando, let me begin with you. Could you please tell 
us under what circumstances the FBI might seek a FISA warrant 
to investigate an American citizen?
    Mr. Orlando. Before an FBI can seek a FISA warrant on an 
American person, we first need a case open on that individual, 
where we need specific and articulable facts that person poses 
a threat to national security, which he has to have some sort 
of tie to a foreign power, generally as an agent of a foreign 
power or tie to a foreign terrorist organization.
    Mr. Chabot. Thank you.
    And in order to initiate such a counterintelligence 
investigation, senior FBI officials must apply for and obtain a 
FISA warrant to collect the information related to these 
allegations. Is that correct?
    Mr. Orlando. You are seeking a FISA warrant. There is an 
internal process of how we do that, and it elevates up to the 
Department of Justice, then to go over to the court.
    Mr. Chabot. Would it be proper for FBI agents to attempt to 
obtain FISA warrants to investigate senior Trump campaign 
advisers simply because they hated Donald Trump?
    Mr. Orlando. That would not be appropriate. As I have 
stated earlier, for us to open a case, there needs to be 
specific and articulable facts that the person poses a threat 
to national security.
    Mr. Chabot. Would it be proper for FBI agents to open a 
counterintelligence investigation based upon hyper-partisan 
memos that were written by individuals linked to the opponent's 
campaign, in this case, the Clinton campaign?
    Mr. Orlando. Back to my same answer. Sure, we would have to 
show that you are an agent of a foreign power.
    Mr. Chabot. Thank you.
    As far as you are aware, do the FBI and other intelligence 
officials verify the truthfulness of the allegations in this 
field dossier about then-candidate Donald Trump?
    Mr. Orlando. Sir, this is outside my purview.
    Mr. Chabot. Okay. Even though the information was never 
verified, and most of it has been proven to be false, the intel 
community relied on it to get a FISA application to spy on the 
Trump campaign. Is that basically what happened?
    Mr. Orlando. Again, sir, that is outside my purview.
    Mr. Chabot. Thanks.
    Mr. Orlando, tell me, what sort of information should an 
agent use to open a counterintelligence investigation?
    Mr. Orlando. Really, a wide variety of information that we 
can use. There just simply needs to be some sort of allegation 
that has specific and articulable facts that believes there is 
a national security investigation. When an agent does that, 
there is a supervisor that reviews that and approves that 
opening of the case. In sensitive matters, it elevates the 
approval.
    Mr. Chabot. Thank you.
    I have got a lot more questions, but you know, it appears 
to me that faulty information was used to investigate the Trump 
campaign officials' bipartisan agents. I just think it is 
strange that just a few weeks ago, Inspector General Horowitz 
issued a scathing report regarding the mishandling of sensitive 
information by James Comey.
    It appears that nothing will happen relative to Mr. Comey. 
He won't be brought before this Committee to answer for the 
allegations in his report, and Mr. Horowitz won't have an 
opportunity to further testify as to what was really happening 
at the FBI when senior officials decided to open the 
investigation.
    That is really a shame because the American people deserve 
to learn the truth, the truth about how it was that the 
Democratic National Committee and the Clinton campaign were 
able to peddle a fake dossier to obtain a FISA warrant and turn 
it into an unnecessary, expensive, time-consuming investigation 
in order to undermine an American presidency. The American 
people deserve better.
    I yield to the gentleman.
    Mr. Jordan. Mr. Chairman, could I actually ask a question? 
I know the gentleman's time has expired.
    Chairman Nadler. The gentleman's time has expired. The--
    Mr. Jordan. Could I ask the chair a question, just on 
something the gentleman just mentioned?
    Chairman Nadler. Is it a parliamentary inquiry?
    Mr. Jordan. It is a question for Chairman of the committee. 
So, Mr. Chairman, the Ranking Members and the chairmen of the 
Oversight and Judiciary Committees received a letter from Mr. 
Horowitz last week, indicating that he has now turned the FISA 
report over to Mr. Barr in the Justice Department.
    Have you had any contact with Mr. Horowitz about when he 
might be in front of this Committee to answer questions about 
the very subject we are learning about today?
    Chairman Nadler. We will review any such letter.
    The gentleman from--the gentlelady from Texas?
    Ms. Jackson Lee. Good morning to the witnesses, and thank 
you very much.
    Let me just ask a general question first, Mr. Wiegmann. 
Having been here on the day, being here in the Congress on 9/
11/2001, just commemorating the aura of that day just about a 
week ago, is the FISA process an important process for national 
security, in your opinion?
    Mr. Wiegmann. Yes, ma'am.
    Ms. Jackson Lee. Mr. Orlando?
    Mr. Orlando. Yes, ma'am. It is a critical tool for us to 
disrupt threats to the United States.
    Ms. Jackson Lee. Ms. Morgan?
    Ms. Morgan. Yes, ma'am.
    Ms. Jackson Lee. Now, let me start with Mr. Wiegmann on the 
FISA opinions. The USA FREEDOM Act directed the Government to 
make all significant or novel foreign intelligence surveillance 
court opinions publicly available to the greatest extent 
practical. It is clear from the written text and from 
statements from Members during floor debate that this was to 
include opinions written before the passage of the USA FREEDOM.
    Nonetheless, only a handful of opinions from the court 
released following passage of the bill have been published. How 
does the ODNI or the DOJ determine which opinions are 
significant or novel enough to be published?
    Mr. Wiegmann. So, in terms of how we decide what is 
significant and novel, the way I think about it is there are 
plenty of opinions that are only going to be applying ordinary 
legal principles to the facts, so let us say as to a particular 
case, deciding whether a particular individual--whether there 
is probable cause that they are an agent of a foreign power. 
There is nothing particularly novel about that exercise. It is 
just very fact intensive.
    Not much would be released anyway if we were to release the 
opinion because it would only be application of facts, which 
are classified. So there is not much benefit to the public. So 
that is the type of case where we would not consider it 
significant or novel.
    If it was, instead, some new interpretation of the act, 
certainly anything that involved an amicus, something about how 
the law applies more broadly, we would consider that to be 
significant and novel. Those are the opinions that we provide 
to this Committee and that we have an obligation under the 
FREEDOM Act to review for declassification.
    Ms. Jackson Lee. Do you know how many opinions have 
remained completely secret because of the definitions you are 
using?
    Mr. Wiegmann. There are certainly opinions that we would 
not consider significant and novel, and those opinions would 
not have been declassified. That is right.
    Ms. Jackson Lee. Would there be a way of securing that 
inasmuch as they are not significant and novel for the 
information of either the American people or Members of 
Congress?
    Mr. Wiegmann. I am sorry. I missed your question.
    Ms. Jackson Lee. Would there be a way of releasing those, 
even those not significant or novel for the American people or 
Members of Congress?
    Mr. Wiegmann. So, if they are neither significant or novel, 
I think the judgment of the Congress was that those are ones 
that we would not provide to the committees and would have no 
obligation to review because there also would be limited public 
interest, I think, in those opinions.
    Ms. Jackson Lee. We could access them, if necessary, in a 
classified setting?
    Mr. Wiegmann. I imagine if there was a particular opinion 
that the Committee wanted to see, I imagine we could have a 
discussion about providing that to the committee. Absolutely.
    Ms. Jackson Lee. In addition, the Government should 
disclose Office of Legal Counsel opinions relevant to the 
Government's interpreting of section 215 of USA FREEDOM Act. Is 
that correct?
    Mr. Wiegmann. The Government has done what with the OLC?
    Ms. Jackson Lee. Disclose Office of Legal Counsel opinions 
relevant to the Government's interpreting of section 215 of the 
USA FREEDOM Act. Is that important?
    Mr. Wiegmann. Whether they should be disclosed?
    Ms. Jackson Lee. Yes.
    Mr. Wiegmann. Again, OLC opinions, some of them are made 
public. Others are not. It really depends on the facts of the 
case and OLC's policy in a particular case as to whether it is 
kind of privileged advice or whether it is something that they 
feel they can make public. Some opinions are public, and others 
are not.
    Ms. Jackson Lee. Thank you.
    May I go to Ms. Morgan? The NSA announced in 2018 that it 
received large numbers of CDRs that it should not have and that 
these technical irregularities began in 2015. In response, the 
NSA deleted every single record it collected since 2015. The 
agency claims it solved the problem going forward, but failed 
to provide any evidence of any change.
    As a result, NSA announced it would purge every single 
record it had collected since 2015. In 2019, the New York Times 
published a major story reporting that the NSA stopped using 
this authority entirely.
    What exactly were the technical irregularities, and has the 
NSA actually stopped the CDR program at this time? If you could 
answer both of those?
    Finally, to Mr. Orlando, if you could--I know where we are 
with respect to foreign operatives--explain the value of FISA 
in your work, but also the necessity of some form of that with 
respect to domestic terrorism.
    Ms. Morgan?
    Ms. Morgan. Thank you, ma'am. I will start with your second 
question.
    The CDR program has been stopped. Last month, all of the 
equipment was decommissioned. We are not leveraging the CDR 
authority and have currently no plans to leverage it.
    In terms of the technical irregularities that we 
experienced, we got some information, and it was still all 
metadata. I would like to be really clear. It was still all 
things like ``Phone number A called phone number B at this date 
and time for this duration.''
    Some of that information was inaccurate. As such, we 
determined that the best course of action was to delete the 
records we received from the telecommunication providers.
    Ms. Jackson Lee. Mr. Orlando?
    Mr. Orlando. Ma'am, if I understood your question 
correctly--
    Chairman Nadler. The time of the gentlelady is expired. The 
witness may answer the question.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Orlando. Ma'am, if I understood you correctly, you 
wanted to understand how FISA could be used on domestic 
terrorism subjects?
    Ms. Jackson Lee. Whether you need an expansion or a 
recharacterization, let us put it that way.
    Mr. Orlando. We can only use FISA when there is a proof of 
agent of foreign--
    Ms. Jackson Lee. I understand.
    Mr. Orlando. So, if the subject is not tied to an agent of 
foreign power, we could not use it on a domestic terrorism 
subject.
    Ms. Jackson Lee. I understand that, and I was just saying 
you need some kind of similar, comparable situation.
    Mr. Orlando. I couldn't comment on FBI policy, but we have 
other tools on criminals matters like a title III for wire 
surveillance that we could use. Oftentimes in domestic 
terrorism cases, we look for the Act of Violence, already a 
violation of Federal law, and some ideology about social or 
hate.
    Ms. Jackson Lee. Thank you.
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Jackson Lee. Thank you.
    Chairman Nadler. The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    Thank you all for being here. Thank you for your work 
trying to keep America safe.
    Did the DOJ, FBI, or NSA during the Obama Administration 
consider the Russian Ambassador to be a terrorist or an agent 
of a terrorist organization?
    Mr. Wiegmann. I couldn't comment on that. I don't know.
    Mr. Orlando. I can't comment on anything outside the scope 
of the FREEDOM Act.
    Mr. Gohmert. All right. Ms. Morgan?
    Ms. Morgan. Sir, I don't have that information.
    Mr. Gohmert. Wow. Wow. That is amazing. Because it puts us 
in the position, having heard that Jeff Sessions was being 
surveilled when he met as a Senator with an Ambassador, there 
were reports that, gee, we have had the Israeli Ambassador 
under surveillance, people that he met with.
    I don't know any of these things firsthand. It is what I 
read in here. It gives me great concern because in my freshman 
term, when we debated section 206, 215, when we debated the 
FISA court, and then recently seen massive abuses through the 
FISA court, we kept being assured, no, no, no, especially in a 
FISA court, things like 215, we are not abusing anybody. I 
heard here at this hearing that 215 allows surveillance of 
foreigners that are not normally associated with a terrorist 
organization.
    I just wondered if that included nations of Israel or other 
folks like that, and your silence speaks volumes. Looking at 
this provision to get access to certain business records for 
foreign intelligence or international terrorism investigations, 
I still am concerned, as I was originally, with some of the 
language because it allows the pursuit--and this is normally 
going to be in front of a FISA court, apparently--that you can 
go after foreign intelligence information not concerning a U.S. 
person.
    We know that is not true because U.S. persons are 
constantly caught up, masked, and then, as we saw in the Obama 
Administration, unmasked for no good reason. Then, also--or to 
protect against international terrorism. Okay, well, that is 
subject to a term of art or clandestine intelligence 
activities.
    I asked years ago, what does that mean? Clandestine 
intelligence activities. Is that like if my neighbor kind of 
stands behind the curtains and watch what is going on in my 
yard, is that clandestine gathering intelligence? I mean, how 
broadly can this go?
    I was never really assured by the part of the law that said 
these things will be done under the guidelines approved by the 
Attorney General. Gee, we may have the Acting Attorney General 
indicted here soon. I would rather have those done under the 
law instead of some guidelines we have nothing to do with.
    Let me also mention with regard to FISA, I understand you 
have abandoned the gathering of metadata, but as long as there 
is a FISA court, there can be another application and affidavit 
that violates the Fourth Amendment's requirement of probable 
cause and supported by oath or affirmation, particularly 
describing things to be seized. When I looked at what was 
disclosed of the order regarding Verizon, apparently everybody 
got one. Everybody complied except Qwest, and I understand the 
head of Qwest may be in jail.
    This just says give us everything you have got on an 
ongoing daily basis, all the call details. There was no 
probable cause of anything. There was no particularity.
    So, even though we may have abandoned those programs, as 
long as there is a FISA Court and we do not have proper 
safeguards for people's civil rights in the United States, then 
you could go right back, and we can get into a constitutional 
discussion on meta data, pen registers, and that kind of thing. 
Still, as long as we do not have reforms in the FISA Court or 
do away with it and go back to the old way of protecting 
national security, then we are going to have these kind of 
things come up, and we will find out about them later, and then 
the program can be abandoned. It sounds like we are just going 
to keep reauthorizing.
    So, I have significant concerns, and also, I am amazed 
here, you get an order that allows--it says meta data between 
U.S. and abroad and wholly within the United States, including 
local telephone calls, but nothing to do with all of those in 
foreign countries. So, in other words, the affidavit and 
application must have said we are not after anything where 
people aren't protected by our U.S. Constitution; we are only 
after the stuff that is protected by the Fourth amendment of 
our Constitution.
    So that all causes me concern. I was delighted to hear my 
friend from California say she wanted to work with both sides. 
We definitely need reforms, so you don't have to be back here 
and squirming because of the abuses that have occurred in the 
system. I really do hope we will work together to have some 
reforms.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Tennessee.
    Mr. Cohen. Thank you, Mr. Chair. I appreciate the work all 
of you all are doing in your agencies. What the Department of 
Justice does, what the FBI does, what our intelligence groups 
does protects our country. It is sad that they have been 
attacked on a regular basis over the last 2 years and people 
have had to question the men and women who are doing such 
outstanding work for us on our behalf. I think that most 
Americans appreciate what you are doing, and I certainly do.
    I am concerned about First amendment rights, and I just 
want some assurances, Mr. Wiegmann, if you can help me with 
this. The law makes clear that when the Government seeks 
business records for investigations involving American citizens 
or permanent residents, the investigation questions cannot be 
conducted solely upon the basis of activities protected by the 
First Amendment.
    How does the Department look at this, the Justice 
Department? Is there any kind of review conducted internally to 
make sure that non-First amendment factors supporting the 
investigations aren't just pretextual?
    Mr. Wiegmann. Thank you for that question. So, absolutely, 
that is a core provision in various provisions of FISA that we 
cannot engage in investigative activity solely on the basis of 
First Amendment-protected activity. Let me give you an idea of 
what that means.
    It is a First amendment right if you want to say, ``I 
support terrorism'' or ``I support al Qaeda'' or ISIS, or ``I 
think that''--
    Mr. Cohen. Or ``I like beer.''
    Mr. Wiegmann. Right, whatever. If you want to say those 
things, if you want to think those things, that is your right. 
So, we could not get a FISA warrant or use a business records 
application when--solely on the basis of that type of speech.
    However, if we have more than that, if the person is saying 
those things and they are also in touch with people in ISIS in 
Syria or in touch with people in al Qaeda in Afghanistan, and 
they are having communications, we can still consider the fact 
that they have made these other statements, because that gives 
us context to evaluate whether this person is an agent of a 
foreign power.
    So, you can see how speech in and of itself that might be 
First amendment protected can be combined with other speech or 
other conduct and paint an entire picture in which you come up 
with a conclusion that someone is an agent of a foreign power 
or is a valid target.
    Does that answer your question?
    Mr. Cohen. Sufficiently. Thank you. Thank you.
    A lot of people have issues or concerns about minority 
communities being targeted. Have you or any of your colleagues 
here analyzed whether section 215 has disproportionately been 
used on specific minority groups, Muslims, in particular, 
Hispanics, border communities? How would you go about assessing 
that? Is anything being done to make sure there is not a 
disproportionate impact?
    Mr. Wiegmann. So, once again, it is very similar. We, the 
FBI--and I will let Mike also address this--cannot initiate any 
investigative activity, including under FISA, solely on the 
basis of someone's race, religion, gender, national origin, et 
cetera. It is the same kind of ``solely'' provision, though. So 
if, let us say, we had information indicating that someone of 
German nationality was coming to the United States to engage in 
a terrorist attack and that may be a bit of information that we 
consider together with other pieces of information to consider 
whether someone was properly targetable, if that explains it.
    Mr. Cohen. Thank you, sir. Can you commit, one of your 
groups, that you will do a disproportionate impact audit for 
us?
    Mr. Wiegmann. I can certainly take that back.
    Mr. Orlando. I could take that back to the FBI as well. 
Just to echo some of his comments, we can't open a case on 
anyone based on First Amendment-protected activity, race, 
ethnicity, or religious groups. We look at the activities of 
the individual, and that is how we make decisions about opening 
cases, and then the probable cause to move towards a FISA.
    Mr. Cohen. Thank you. Can you tell us, when FISA was first 
passed, which I guess was right after 9/11, am I correct?
    Mr. Wiegmann. It was actually--
    Mr. Cohen. There were changes after 9/11.
    Mr. Wiegmann. There were changes. It was enacted in 1978.
    Mr. Cohen. Yeah, the changes were pretty strong. It had an 
acronym about--Bush gave it, whatever.
    Mr. Wiegmann. The PATRIOT Act.
    Mr. Cohen. PATRIOT Act, yeah, thank you. A lot of people 
reacted adversely to it. Can you assure me and some of my 
liberal friends who had those concerns that there have been 
quite a few amendments to take care of some of the concerns 
that originally arose?
    Mr. Wiegmann. There have been certainly, with respect to 
the expiring authorities, a number of amendments over the 
years. There has been a lot of oversight over the years, both 
congressional oversight, the court, the executive branch. From 
my perspective, we have a very robust system for making sure 
these authorities are used properly.
    Mr. Cohen. Thank you. Just let me close. It appears that 
some on the other side have got a problem with a lot of things 
that have gone on in law enforcement. I read all those FISA 
applications in the Carter Page case and saw nothing wrong with 
any of them. I think it was--all the information was given to 
the Court concerning the fact that the dossier that was there 
was not the Russian Government. It was a British official, so 
it was not Russia. It was started by the Republicans, I think. 
Regardless of that, that was only a small factor, and there was 
lots of information there to protect our country from Russian 
interference. I thank the Justice Department and the FBI for 
their work, and the security folk. Too much has been put on 
you, and the biggest threat to you is a President who does not 
tell the truth and has access to information and the ability to 
counteract the good work that you are doing. So keep doing your 
good work.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Texas is recognized.
    Mr. Ratcliffe. Thank you, Chairman.
    As a former U.S. Attorney, it was and still is my opinion 
that FISA is an important tool in the fight against 
international terrorism. I think it is estimated that 25 
percent of our actionable intelligence on foreign terrorists 
comes from FISA authorities like section 702, which isn't up 
for reauthorization, but my point is that, properly used, 
reauthorization of certain FISA authorities should be 
noncontroversial and should be bipartisan.
    The problem is that many of us, as has been pointed out, 
including those of us with access to classified information, 
have seen what appear to be egregious abuses and misuses of 
FISA authorities and corresponding misrepresentations before 
the Foreign Intelligence Surveillance Court itself, 
specifically as it pertains to Obama Administration DOJ and FBI 
officials in securing a FISA order on at least one U.S. citizen 
back in October of 2016 named Carter Page.
    Many of us do believe that the Obama Justice Department 
verified an unverifiable dossier that was funded by the 
Democratic Party to secure an order allowing for the 
surveillance of that former Trump campaign associate, Mr. Page. 
Many of us also believe that the Obama Justice Department had 
exculpatory evidence on the issue of probable cause that was 
not provided to the FISA Court, at least not provided to the 
Court during the pendency of the FISA order itself.
    Earlier this morning, Chairman said that he didn't see any 
evidence of FISA abuse as it pertains to Carter Page. You just 
heard Mr. Cohen say the same thing. Democrats generally have 
expressed that opinion. The former FBI Director, former 
Director Comey, says the idea of FISA abuse is nonsense as it 
pertains to Carter Page. I and many of my colleagues disagree 
with that. I will just leave it at the Inspector General has 
written a report, and we will see who is right, and we will see 
who is wrong. I am afraid, unfortunately, that the Inspector 
General is going to find that folks on my side of the aisle are 
right, that FISA procedures were abused and that they were not 
followed and will offer recommendations to correct that. Again, 
we will see.
    So, I want to use my time to focus a little bit on process, 
and let me start out by just asking: Do any special rules exist 
when submitting a FISA application to surveil or spy upon a 
political campaign or one of its associates? Anyone.
    Mr. Orlando. As I have stated earlier, we open cases based 
on specific and articulable facts that they are agents of 
foreign powers. I can't comment on anything outside the scope 
of the FREEDOM Act today.
    Mr. Ratcliffe. Anyone? Special rules for surveiling a 
political campaign?
    Mr. Wiegmann. I am not familiar with it, to be honest with 
you, sir. I can't say one way or the other.
    Mr. Ratcliffe. Okay. So let us then use the existing 
framework that we know of. When the Government is presenting a 
case with respect to a U.S. person like Carter Page, the FBI is 
required to verify to the Foreign Intelligence Surveillance 
Court, or FISC, that that evidence is verified. Correct?
    Mr. Orlando. When we draft an application, we have a Woods 
file that contains supporting documents to back up the facts.
    Mr. Ratcliffe. Does the Department of Justice--are they 
required to disclose to the Foreign Intelligence Surveillance 
Court any exculpatory evidence? In criminal cases, we have what 
is called the ``Brady requirement'' to disclose exculpatory 
information. Does that something Brady-like apply before the 
FISA Court?
    Mr. Wiegman. Again, as I was saying earlier, it is not 
Brady because that is a principle in criminal law in that 
context. But, yes, my understanding at least, and subject to 
getting back to you on this question, but I think the answer 
is, yes, we do try to provide the full picture to the Court 
when applying for a FISA warrant. So that means evidence both 
indicting that the person--that there is probable cause that 
the person is an agent of a foreign power and information that 
would suggest to the contrary.
    Mr. Ratcliffe. Okay. So in the case of Carter Page, if all 
the Court heard was the arguments of the Government seeking a 
warrant, no counterarguments presented questioning the 
motivations of the funders of the Steele dossier, no cross-
examination about the veracity of the dossier itself or about 
the credibility of the dossier's author, Mr. Christopher 
Steele, what safeguards are there in the FISA process currently 
to make sure that those obligations are met? What as a 
practical matter would prevent the appointment of an attorney 
ad litem to represent the interests of a target of a FISA 
application, provided you could meet the security clearance 
requirements, maybe by taking someone from the Justice 
Department's Civil Rights Division?
    Mr. Wiegmann. So, if I understand your question, I guess 
your question is whether we should--
    Chairman Nadler. The gentleman's time has expired. The 
witness may answer the question.
    Mr. Wiegmann. Your question is whether we should have 
something like an amicus or something like to represent the 
targets of FISA applications? Is that the--is that your 
question?
    Mr. Ratcliffe. To be able to probe the arguments that the 
Government is making to take the extraordinary measure of 
surveiling a U.S. citizen.
    Mr. Wiegmann. So, I guess one thing I would say is we have 
to remember that FISA is really in the national security world 
the same thing, as I am sure you are familiar with as an ex-
U.S. Attorney, as a title III wiretap, which is really the same 
type of thing, and we don't have any amicus or any other 
participation in that context. So, I am not sure why it would 
be necessary or appropriate to have an additional lawyer in 
this context. We do have ex parte proceedings in the ordinary 
course when we are doing wiretaps of a drug dealer or an 
organized crime figure, et cetera. I am not sure I see a need 
for having an amicus in the same situation when it is a spy or 
a terrorist.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Georgia.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. I am 
ashamed that in an oversight hearing you all have to be 
subjected to political fake news that is being trafficked in by 
Members of the Republican Caucus on this Committee.
    Several days before President Trump was inaugurated, he 
compared intelligence officials such as yourselves as 
``Nazis.'' Then the day after he was inaugurated, he paid a 
visit to CIA headquarters out in Langley, Virginia, and he 
stood in front of the hallowed ground of the memorial wall 
where the names of CIA operatives, men and women, American 
citizens, have given--are commemorated. Those are people who 
have given their lives, the untold numbers. We do not know how 
many. That is what that wall commemorates, and it is hallowed 
ground out there. Instead of, while he was there, speaking 
about the sacrifice of those brave men and women who have given 
their lives to protect us, the President talked about his crowd 
size at the Inauguration, and he bragged about winning the 
election. Since then, he has continued to do everything he can 
to destabilize public opinion about our intelligence 
professionals and the work that you do, and you have had to 
work through that. So, I appreciate you coming here today. I 
appreciate you continuing to do your work without political 
bent of mind but strictly and single-mindedly for the 
protection of the American people, and I thank you for that. 
This hearing is about oversight and should not be about 
politics. As a member of the legislative branch, I am sorry. I 
want to apologize to all of you all, all of your professionals 
who are here today, for having to sit through this tirade that 
comes from the other side.
    Now, Ms. Morgan, you mentioned that the CDR Program has 
been suspended, and NSA is tasked with execution of the CDR 
Program. Correct?
    Ms. Morgan. NSA operated the CDR Program.
    Mr. Johnson of Georgia. Has the CDR Program or that 
authority under the program been used in any way, the meta data 
collected under the program, has it been accessed for any 
purpose since the program was suspended?
    Ms. Morgan. Sir, we deleted the records associated--that we 
got from the telecommunication providers, so those records no 
longer are there to be accessed.
    Mr. Johnson of Georgia. All right. Thank you. And while it 
was being collected, was that information subject to being 
shared with immigration enforcement authorities?
    Ms. Morgan. Sir, the information that we collected under 
the CDR provision was accessible to analysts who are trained in 
how to handle that particular data and the rules associated 
with that data. Those analysts would look at the data, and if 
they had foreign intelligence insights to share based on that, 
they would report it through authorized channels to authorize 
personnel.
    Mr. Johnson of Georgia. That would have been officials also 
involved in immigration enforcement?
    Ms. Morgan. Sir, I am not certain about that. They would 
report it to an authorized distro, to individuals who were 
authorized to receive that foreign intelligence information.
    Mr. Johnson of Georgia. Thank you.
    Now, Mr. Orlando, the call detail records provision says 
that these records cannot include cell sites or GPS 
information, but other parts of the law governing the types of 
business record don't have that express prohibition. So what I 
want to know is: Does the Government collect geolocation 
information under section 215?
    Mr. Orlando. I am going to defer that question over to my 
colleague at DOJ. He is better suited to answer legal and 
authority questions.
    Mr. Johnson of Georgia. Yes, sir. Mr. Wiegmann?
    Mr. Wiegmann. So, as I think I mentioned earlier, there are 
some--there can be some Fourth amendment issues in that area, 
and to really answer your question, I think I would prefer to 
answer that in classified session.
    Mr. Johnson of Georgia. Thank you. With that, I will yield 
back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Arizona.
    Mr. Biggs. Thank you, Mr. Chairman.
    So, I know this has been discussed this morning to some 
extent and I want to approach this maybe from a slightly 
different angle. In light of Carpenter, do you believe you have 
the authority under 215 to obtain cell site location 
information from providers?
    Mr. Wiegmann. So, again, I would prefer to get into that--I 
am happy to give you that information, Congressman. I would 
just like to do that in a classified briefing.
    Mr. Biggs. Okay. This may elicit the same response, but has 
NSA or DOJ issued any guidance interpreting section 215 in 
light of Carpenter?
    Mr. Wiegmann. No.
    Mr. Biggs. No guidance, NSA?
    Ms. Morgan. Not to my knowledge.
    Mr. Biggs. Okay. Has DOJ ever notified a criminal defendant 
that information in his or her case was obtained through a 
section 215 order?
    Mr. Wiegmann. No. It is not required by law. There is no 
provision for that.
    Mr. Biggs. Why is the number of accounts impacted so 
substantial given the number of targets? In 2018, the 
Government collected information, 214,816 unique accounts, if 
it had only 60 surveillance targets?
    Ms. Morgan. Sir, just to clarify, I assume you are 
referring to the numbers that were reported in the--for the NSA 
CDR?
    Mr. Biggs. Yes.
    Ms. Morgan. Okay, sir. So, I think it is--two things I 
think are important when you think about those numbers. One is 
putting those numbers into context. So, every day in the United 
States, there is billions of telephone calls made a day, which 
can generate multiple records. We had about 500 million over 
the course of a year.
    The other thing I would want to highlight is that when we 
get data, when we were getting data under the program that is 
now suspended, we were authorized to get historical data that 
the telecommunication providers held in addition to ongoing 
data for the period of the court order.
    Additionally, I would like to highlight that under the CDR 
Program, which, again, we are no longer using, we are 
authorized to get up to two hops from the--
    Mr. Biggs. Right.
    Ms. Morgan. So that, as you would imagine, will expand your 
numbers exponentially.
    Mr. Biggs. So, does the NSA believe it has the authority to 
restart the program?
    Ms. Morgan. Sir, currently we believe that authority 
exists.
    Mr. Biggs. Okay. Do you have the authority, collection 
authority that is replicated under any authorization or any 
other authority? In other words, is there some other legal 
authority that you think that allows you to get the same 
information?
    Ms. Morgan. We don't have another legal authority that 
would allow us to reinstate this existing--the program as it 
existed.
    Mr. Biggs. I am not following that. So, let me get this 
back. If I understand, the answer to the first question is you 
believe that you do have the authority to restart the program; 
you don't need new authority to restart.
    Ms. Morgan. Yes, sir.
    Mr. Biggs. If you don't restart that program, is there some 
other legal authority that you can use to garner the same 
information?
    Ms. Morgan. There is no other legal authority whereby we 
could establish the program that we recently shut down.
    Mr. Biggs. Okay. Very good. Thank you.
    So, a FISA order on a U.S. citizen, Carter Page, was 
divulged to the Washington Post, and I think you answered this 
earlier. Has anyone been held accountable for this illegal 
disclosure? There has been no Woods review? You don't know 
whether there has or not?
    Mr. Wiegmann. I can't comment on that in any way. I don't 
know the answer.
    Mr. Biggs. Okay. So, I want to make sure I understand 
something. Mr. Orlando, I thought you said--and I jotted it 
down. I am not going to quote it because I am sure I messed it 
up, and I am just asking for clarification here. I thought you 
might have said something to the effect that you use FISA 
authority to cultivate obtaining probable cause. Is that a fair 
characterization, or did you say anything like that at all?
    Mr. Orlando. We use some of the business records and other 
authorities to develop probable cause to support a FISA.
    Mr. Biggs. All right. So, you are using business record 
authority, okay. We have indicated that you can't--you don't 
know whether a Woods review was performed on the Carter Page 
FISA application to determine whether each alleged fact was 
substantiated. Can a regular news article server as--serve as 
underlying evidence in a Woods file to verify the accuracy of a 
FISA application?
    Mr. Orlando. If I understand your question correctly, you 
are asking is a news article appropriate to be used? If 
information was pulled from the newspaper article, it would 
have to be included in the Woods file.
    Mr. Biggs. So, the answer is yes?
    Mr. Orlando. Yes. There is often a lot of other facts that 
are put into that file that builds up the totality of your 
probable cause.
    Mr. Biggs. Okay. With that, my time has expired. Thank you, 
Mr. Chairman. Thank you, Members of the panel.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses for your testimony and for your service to our 
country.
    I think we are all trying to balance the very important 
constitutional values that are the bedrock of our democracy 
with, of course, your important responsibilities to keep 
Americans safe, and FISA attempts to strike that balance.
    I would like to focus my questions on the role of an 
adversarial process in that particular--and, Mr. Wiegmann, I 
will begin with you. Significant reform in the USA FREEDOM Act 
was a requirement that the FISA Court appoint an amicus curiae 
to argue the other side of the case as presenting novel or 
significant interpretations of law. The annual report on the 
FISA Court's activities for 2018 issued by the Administrative 
Office of U.S. Courts states that an amicus was appointed on 
nine occasions last year. Is that right?
    Mr. Wiegmann. I don't know that exact number, but it sounds 
in the right ballpark anyway.
    Mr. Cicilline. Then the report for 2017 states that no 
amicus were appointed at all that year, but it also says 
something kind of odd. It says on three occasions the FISA 
Court told the Government that it was considering appointing an 
amicus because the proposed application raised novel or 
significant questions. Then the Government either withdrew the 
applications or modified them in a way that apparently 
convinced the Court not to appoint an amicus.
    Understanding that this is an unclassified setting, can you 
explain as best you can what happened in those three incidents?
    Mr. Wiegmann. So, I don't know in those particular three 
incidents, but I can tell you that there is a process where--it 
is a little bit unusual, that you wouldn't see in a regular 
criminal matter--where we provide read copies to the Court in 
advance. So, this is essentially a draft application, and there 
is a give-and-take sometimes between the judges and their 
assistants, their staff, and attorneys. In light of the 
exchanges that occur in that process, sometimes applications 
are withdrawn altogether. Other times they can be modified in 
ways that, again, may mean that the case is less significant or 
novel and the Court might--
    Mr. Cicilline. Can you share maybe in writing what the 
particular circumstances were of those three? There was also, I 
believe, in 2018 something similar happened. I am wondering if 
you could give a little more context of what the actual 
circumstances were?
    Mr. Wiegmann. I can certainly take that back and see if we 
can get you that information.
    Mr. Cicilline. Thank you.
    The law also requires the FISA Court and the Government to 
give those who file amicus curiae access to all materials 
deemed relevant to their duties, such as legal precedents, 
applications, or other supporting materials. As far as you are 
aware, have any amici ever been denied access to information 
they thought was relevant to their duties?
    Mr. Wiegmann. Not that I am aware of.
    Mr. Cicilline. Have they ever been denied the ability to 
consult with other individuals for assistance in preparing 
their cases?
    Mr. Wiegmann. Again, not that I am aware of.
    Mr. Cicilline. If the amicus curiae believes the FISA Court 
has made a decision in error, do they have the ability to 
appeal or otherwise notify the FISA Court of review?
    Mr. Wiegmann. You are asking a good question. I would have 
to look back at the law on that. There is an appellate 
mechanism. My only hesitation is I am not sure if the amicus, 
the way that we constructed the law, actually has standing to 
bring the appeal or whether it is done in a different fashion. 
I could get you--it is written in--there is an appeal 
mechanism, and so I would just have to get into that issue. 
They certainly can participate in appeals when an appeal is 
brought, so I would have to get back to you as to how it works 
exactly. It is a slightly different mechanism than that, but 
there is a mechanism--there is a mechanism for appeal.
    Mr. Cicilline. It is my understanding that only a handful 
of opinions from the Court have been published. How does the 
NSA or the DOJ determine which opinions are significant or 
novel enough to be published?
    Mr. Wiegmann. Again, as I mentioned earlier, it is an 
evaluation--it is a case-by-case evaluation. There are many--
the vast bulk of FISA matters are routine. You are applying the 
law to the facts and determining whether there is probable 
cause to target a particular individual. Those would be 
routine. There is a much smaller number that raise new 
significant issues of whether, let us say, a particular type of 
data could be collected or new issues, new expansions of an 
authority. And so we are evaluating that on a case-by-case 
basis and determining which--
    Mr. Cicilline. Yeah, what I am interested to know is how 
many opinions that fit that definition of ``significant or 
novel'' but are not published.
    Mr. Wiegmann. Well, we have to provide all of those to the 
committee. Under the FREEDOM Act, all of those must be 
provided. Then we also have to undertake, I believe, a 
declassification review to determine whether we can redact and 
release any of those significant or novel opinions. So, that is 
in the law since 2015 that we have to do that.
    Mr. Cicilline. All of those declassification reviews are 
current?
    Mr. Wiegmann. Yeah, I mean, there may be some that are a 
work in progress. In other words, there may be some that are 
ongoing, that haven't been done yet, but that they would be 
under review.
    Mr. Cicilline. My final question, Mr. Wiegmann, is: Has the 
Department of Justice notified all criminal defendants who are 
being prosecuted based on evidence derived from the use of 
section 215? You are required to do it, obviously, for 
prosecutions with evidence from 702. But, I would like to know 
whether you do it with respect to 215--if you do not, why not? 
--and whether you will commit to such notification. Finally, 
would there be a problem if Congress were to amend section 215 
to require notice to a criminal defendant in the same way we do 
under section 702?
    Mr. Wiegmann. Yeah, so we don't provide notice to criminal 
defendants but for use of information under 215. Other 
provisions of FISA, title I, title III, 702, Congress has built 
in a mechanism whereby we would give notice if we intend to use 
information that is obtained or derived from that authority in 
a criminal case against an aggrieved person. So, there is no 
such provision currently in the law for section 215. The reason 
for that, again, I think is that 215 is, again, essentially 
like a grand jury subpoena. It is just an authority to allow us 
to collect third-party business records in which there is no 
Fourth amendment protected interest. Generally, we associate 
notice and suppression mechanisms with your ability to 
challenge, the invasion of a constitutionally protected privacy 
interest. That is generally not done in the law in other 
contexts with respect to third-party business records. There is 
no ability, for example, to challenge information derived from 
a grand jury subpoena either, and so that is the model that is 
incorporated into FISA modeled on the criminal authorities.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Louisiana.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. Thanks 
to each of you for being here and for your service to the 
country.
    Mr. Wiegmann, just a few questions for you regarding the 
constitutional implications of all this. Does the Fourth 
Amendment's protection against unreasonable search and seizure 
apply to business records that could be obtained under section 
215 of the PATRIOT Act?
    Mr. Wiegmann. No.
    Mr. Johnson of Louisiana. So, a person does not have a 
reasonable expectation of privacy in third-party business 
records then. Is that right?,
    Mr. Wiegmann. Yes.
    Mr. Johnson of Louisiana. Is it true that a 215 order 
provides greater privacy protection than a grand jury or 
administrative subpoena which can be used to obtain the same 
types of business records in a criminal investigation without 
prior court approval?
    Mr. Wiegmann. That is correct. Insofar as, for example, 
most grand jury subpoenas can be issued by an Assistant U.S. 
Attorney, here we have to go through court and make a specific 
showing and so forth, which we would not have to do in a 
criminal case. So, it is more protection, not less.
    Mr. Johnson of Louisiana. I got it. If the Fourth amendment 
applies to foreign countries, do other American protections 
under the Bill of Rights apply, like, for example, the Second 
Amendment? Or what about the Due Process Clause?
    Mr. Wiegmann. I am not sure if I understand your question.
    Mr. Johnson of Louisiana. Well, strike that. Let me give 
you some foundation for it.
    In a domestic title III wiretap, an individual who is not 
under suspicion may be monitored because they receive a phone 
call from someone who is the target of the title II wiretap. 
Traditionally, those calls are subject to minimization 
procedures. Is the same true for the collection of content 
under FISA?
    Mr. Wiegmann. Yes. It operates differently under title III. 
In the criminal context, it is real-time minimization, and by 
that I mean they are turning on and off the wiretap during the 
conversation, depending on whether they are collecting 
information that is relevant to their investigation or not.
    In FISA, it is done after the fact. Okay? So, if you 
receive that U.S. person information, if it is a foreign 
target, they are in communication with a U.S. person, then the 
minimization process--there are procedures that are in place to 
try to minimize the collection, retention, et cetera, of U.S. 
person information. That process is done post hoc. When you are 
thinking about the information that you have and you are 
disseminating it within the intelligence community, that is the 
stage at which they are doing the minimization in the FISA 
context. So, that is the big difference between title III and 
FISA in that regard.
    Mr. Johnson of Louisiana. In that process, the on-off 
procedure, as you describe it, there is obviously an inevitable 
amount of subjectivity that goes into thate is the kind of 
thing that makes people nervous, I guess. We have to at the end 
of the day, trust that those who have that authority are 
flipping the switch at the right times. But, I know that is an 
impossible thing to--I do not how to speak to that.
    Mr. Wiegmann. Again, just to be clear, that is in an 
ordinary criminal wiretap. That is what they are doing every 
day and have done for many years.
    Mr. Johnson of Louisiana. Right. Is legally obtained 
information eligible for use in other intelligence activities? 
So, can evidence obtained through intelligence collection be 
used in a criminal prosecution and under what circumstance?
    Mr. Wiegmann. Yes, it can be, assuming that they get 
approval from the Attorney General to use it, we get the 
approval from the intelligence community. It can as a general 
matter be used in a criminal case.
    Mr. Johnson of Louisiana. All right. I am going to yield 
back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    The gentleman from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Thank you all for your 
public service.
    I am going to start by simply correcting some misstatements 
of my Republican colleagues related to the FBI's 
counterterrorism investigation and the Carter Page warrants. 
Here are the facts.
    The FBI's counterterrorism investigation included in part 
the Carter Page FISA warrants. That entire investigation helped 
lead to the Mueller Special Counsel investigation. Special 
Counsel Mueller's investigation resulted in 34 individuals 
being indicted or companies being indicted, of which 8 have 
been convicted or pled guilty of violating American criminal 
laws. Volume I of the Mueller report showed that the Russians 
engaged in a sweeping and systematic attack on elections. It 
showed that the Trump campaign knew about this attack. They 
welcomed it. They gave internal polling data to the Russians, 
and then they planned their campaign strategy around that 
Russian attack. We should be thanking the FBI, not trashing 
them for getting this information out to the American people. 
Those are the facts.
    Now, I have questions about the Call Detail Records 
Program, and my first question is: Unlike FISA warrants and so 
on, none of this goes through a warrant process. Is that 
correct?
    Ms. Morgan. Sir, if I might just explain how the program 
worked when we--
    Mr. Lieu. Sure.
    Ms. Morgan. So just as an example, an NSA analyst, they 
have a phone number, say, and they have a reasonable, 
articulable suspicion that that phone number is used by a 
foreign power engaged in international terrorism. We work at 
the NSA with our DOJ and our FBI colleagues to draft an 
application to the FISA Court or the Attorney General in an 
emergency situation. The FISA Court reviews that information we 
present to see if we have met the standard, reasonable, 
articulable suspicion. If the FISA Court approves that 
application, then the telecommunication providers are compelled 
to provide us with the meta data associated with that phone 
number.
    So there is a court--
    Mr. Lieu. Before that--before the purge, you had all these 
records collected without a warrant. Correct?
    Ms. Morgan. Sir, before the purge, the records that we did 
collect were a result of going through that FISA process. 
However, some of the records that we received had technical 
irregularities with them which resulted in the purge.
    Mr. Lieu. So, you had hundreds of thousands of records that 
went through the FISA process?
    Ms. Morgan. The FISA Court approved the specific selection 
term. The records that we get that are associated with that 
term come from the telecommunication providers.
    Mr. Lieu. So, one term could result in a lot of records.
    Ms. Morgan. Yes, sir, because as you likely know, we are 
able to get historical records associated with that phone 
number and prospective records for as long as the order is in 
place. We are also authorized to get what we call ``two hops 
out'' from that original phone number.
    Mr. Lieu. Can you explain what that means to the American 
people?
    Ms. Morgan. Absolutely, sir. So, if the Court approves a 
phone--say my phone number is associated with international 
terrorism, and agent of a foreign power, going through the 
court process, they are approved, I am authorized to get meta 
data records of other phone numbers that have been in contact 
with my phone number. So, for example, if I am in contact with 
Mr. Orlando, I am authorized to get that. I am also authorized 
to get the phone numbers that were in contact with Mr. 
Orlando's phone number. So, if Mr. Orlando was in contact with 
Mr. Wiegmann, I would be authorized to get that, and we call 
that ``two hops.'' I am authorized to get retrospectively as 
well as ongoing for the duration of the court order.
    Mr. Lieu. All right. Thank you.
    Earlier it was stated that part of that also would include 
driver's license information?
    Mr. Wiegmann. So, again, to be clear, that is traditional 
use of 215. What was just being described is the CDR Program, 
so the CDR Program has nothing to do with driver's licenses, et 
cetera. So, there is a separate--the regular, ordinary uses of 
business records allows you to get things like driver's license 
records, hotel records. That is more targeted. That is based on 
the relevance of those particular records in a particular 
investigation.
    Mr. Lieu. Would that also include images, like the picture 
on the driver's license as well?
    Mr. Orlando. I am not sure. We can go back and--
    Mr. Lieu. You will let us know?
    Mr. Orlando. We will let you know.
    Mr. Wiegmann. I don't actually know.
    Mr. Lieu. So, thank you for your answers. My personal view 
is that this CDR Program, also known as the meta data program, 
to me it does violate the privacy. The Government could tell, 
for example, just from meta data whether a person called a 
suicide prevention hotline or Alcoholics Anonymous or a sex 
chat line or a bankruptcy lawyer or a divorce lawyer. So to me, 
that is just too much information for the Government to have. 
In addition, with the two hops, I think it captures too many 
people. So, without a greater showing of why this system is 
efficient or has resulted in actual, concrete advantage to the 
Government, I am unlikely to support its reauthorization.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from North Dakota.
    Mr. Armstrong. Thank you, Mr. Chairman. I just want to say 
I have never worked with the NSA because I was a lawyer in 
North Dakota, but I have worked with DOJ and FBI a lot in my 
private career, and I appreciate everything you all do. What I 
have always found is the very best agents, the very best 
lawyers are very cognizant of where the line is and what they 
can do and what they can't do. They also, the best and most 
aggressive ones, particularly, I am assuming in this area, will 
push the envelope in order to do something because that is your 
job. I don't discount that. I think that is actually 
appropriate. I think that is why it is our job and the Court's 
job to set where that wall is. So you can keep running into 
brick walls and doing what you are doing to keep our country 
safe.
    I do want to go back to something that Mr. Ratcliffe was 
talking about, and we were doing the context between this 
gathering--or this type of information and criminal cases, and 
one of the things that was stated was that this happens a lot 
in criminal cases, ex parte, wiretaps, all of that. I think one 
of the fundamental differences that we have is eventually I get 
it all as the defense attorney. In a straightforward criminal 
case, I get it all. I get to go to Brady. I get to go to 
Carpenter. I get to go to all of those things. That is what I 
think we miss sometimes in this and how we deal with it.
    I know the difference between Carpenter and essential real-
time tracking of your actual location versus business record 
exceptions, and this is a perfect example of where we get to 
that.
    Do you know how many FISA-derived informations have been 
used in criminal--or how many criminal prosecutions have come 
out of FISA warrants?
    Mr. Wiegmann. I am not sure what you mean by ``come out 
of'' the FISA warrant. If you mean how many cases have we used 
FISA information in a criminal case, including title I FISA, 
title III FISA? So there have been many of those cases since 
the late 1970s when FISA was first adopted. I mean, it is not a 
massive number, but I couldn't--I wouldn't have an exact count 
of how many there have been, but there have been over the years 
many different cases.
    Mr. Armstrong. I would just like--outside of everything, I 
have never wanted a half-hour longer in my life to ask 
questions, but so--and how do you transition the intelligence 
gathering? I mean, we have talked about Brady, and it is not 
the same, and I understand all of those things. When you get 
into a criminal case--we always have a saying, right? Hard 
cases make bad law. There is back-and-forth going on about the 
Carter Page case and all of that. The problem with a lot of 
this is we only hear about the hard cases. We don't hear about 
a lot of other things. So, I am all over the place because I 
have so many questions I want to ask.
    How does the Woods review work?
    Mr. Wiegmann. I will let Mike answer that.
    Mr. Orlando. Sir, if I could go back to your original 
question and answer that.
    Mr. Armstrong. Yeah.
    Mr. Orlando. So, an espionage case is a good example--
oftentimes we use FISA to build that case, and then we bring 
that to a criminal conclusion. As we build that case, we make 
sure that the FISA, the information that is there that we have 
to turn over that is relevant to that case, gets declassified 
to be turned over to the defendant.
    Mr. Armstrong. I have a question. Have you ever found 
existing criminal activity unrelated to what you were dealing 
with that has been turned over to law enforcement?
    Mr. Orlando. I don't recall.
    Mr. Armstrong. A terrorist talking to a drug dealer would 
be how I would--I mean, just that specific fact pattern.
    Mr. Orlando. I don't have any specific background on that. 
Mr. Wiegmann might have some on that.
    Mr. Wiegmann. I would have to get back to you and see how 
often that has come up.
    Mr. Armstrong. That is where I think the conflict comes in 
for people who are not naive and understand how we want to keep 
our country safe but actually really do care about how the Due 
Process Clause and civil liberties apply once we end up in 
those situations.
    Mr. Wiegmann. Just to be clear, again, if we are using that 
FISA, the product of that FISA in a criminal case, we have an 
obligation to give notice to the criminal defendant. They have 
then the ability to challenge the use of that FISA information 
in court. There is a process that is all set up in the statute, 
and that has been done many times, again, in these cases, 
typically terrorism cases, espionage cases, and the like.
    Mr. Orlando. In regards to the Woods process, the agent 
starts drafting an application. Once he is complete, he sits 
down with the supervisor. They review it together, and every 
fact he has to be able to show the supervisor where he got that 
information from. All that material goes into a book for 
review.
    Mr. Armstrong. This goes back to what several people--Mr. 
Cicilline and Mr. Ratcliffe were talking about. We had said the 
amicus attorneys get all relevant legal information. I think 
some of us would be more--I don't care if they have the top 
classified clearance that exists in the world, but what would 
be the problem with having somebody in--an amicus lawyer in all 
of these hearings at their onset?
    Mr. Wiegmann. So, this was something that was considered 
back in 2015, and our judgment at that time, and I think it 
remains our judgment today, is that that would really slow down 
and bog down the process in the FISA Court. If you had an 
amicus participating and every FISA application was an 
adversary proceeding, certainly if we had that in the title III 
context where we are doing ordinary criminal wiretaps, having 
an adversary proceeding in every application would make the 
process untenable.
    Mr. Armstrong. A follow-up? Thank you. I don't necessarily 
see the oversight part of this that I would be looking at is I 
don't even--I don't want them to have all relevant information. 
I want them to have it all and be able to review it and deal 
with those. I don't necessarily think it would potentially have 
to be adversarial in the hearing. I would just want them to be 
able to deal with that, because the consequences for 
withholding information on those types of issues really only 
come to bear if somebody finds it out, which is typically very 
challenging when there is only one part of this process being 
presented. So, there are potential ways to do this that doesn't 
slow it down, that also holds people accountable for making 
sure it is being done correctly.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady from Washington.
    Ms. Jayapal. Thank you, Mr. Chairman. Thank you all for 
being here.
    You have heard on a bipartisan basis that we all have 
concerns about how mass surveillance is used in the United 
States, and particularly after the PATRIOT Act, we tried to 
address some of those things. There are still issues that 
remain on the table as we look at reauthorization.
    So, I wanted to go to the CDRs, and just so that the 
American people understand this, while the program has been 
suspended, my understanding is that the Administration has 
asked for that to continue to be part of the reauthorization. 
Is that correct, Ms. Morgan?
    Ms. Morgan. Yes, ma'am.
    Ms. Jayapal. So, just so people understand how much 
information is being collected, according to the Office of the 
Director of National Intelligence 2019 Statistical Transparency 
Report, the NSA collected call records based on 11 targets in 
calendar year 2018. Is that correct?
    Ms. Morgan. Ma'am, I don't have the report in front of me, 
but--
    Ms. Jayapal. It is page 28 of the report. According to that 
same report, with just 11 targets--just 11 targets--the NSA 
collected 434,238,500--excuse me, 434,238,543 call records. 
Does that sound--I know you don't have the report in front of 
you. It is quoted from the report.
    Ms. Morgan. Ma'am, that sounds accurate to me.
    Ms. Jayapal. Okay. So, I think the American people need to 
understand that when one record is collected, one target is 
collected, that means you are collecting enormous amounts of 
call records with just that one target. It is a shocking amount 
of records, and I don't think that the vast majority of the 
American people understand that.
    So now going to section 215, as part of the broader 
surveillance authorized by section 215, can the NSA obtain 
people's medical records?
    Ms. Morgan. Ma'am, if I could just clarify.
    Ms. Jayapal. Of course.
    Ms. Morgan. So, the components that we use that we are 
talking about today is really the CDR provision from an NSA 
perspective. So, I would defer to my colleagues to speak to 
traditional uses of the--
    Ms. Jayapal. Sure. We are moving to broader 215, so, Mr. 
Wiegmann, if you want to address that?
    Mr. Wiegmann. I don't know if--I am not aware of it having 
been used ever to get medical records. I mean--
    Ms. Jayapal. But, it could be? The way the provision is 
written, the way that section 215 is written, could it be used 
to obtain medical records? It can be used to obtain driver's 
licenses.
    Mr. Orlando. I am not aware of us ever seeking it for 
medical records. I would say the circumstances that I can think 
of us wanting that would be very limited--
    Ms. Jayapal. But, there is nothing in 215 currently that 
prevents us from doing that. You are just saying it hasn't been 
used before. It could be. Is that correct?
    Mr. Orlando. I think we would have to look at the version 
closely to give you a--
    Ms. Jayapal. Okay. How about tax returns? Do you collect 
tax returns from millions of--hundreds of millions of 
Americans?
    Mr. Wiegmann. We certainly couldn't get it for hundreds of 
millions. You have to show in each case with the statement of 
facts that these individual records are relevant to an 
authorized investigation of counterterrorism or for 
counterintelligence purposes for a U.S. person. So, that is 
going to limit it dramatically. You are not going to be able to 
do that. You also have to use a specific selection term now 
because Congress put that in in 2015. So, you can't do bulk 
collection under 2015 at this stage. There is no possibility of 
collecting hundreds of millions of health records. Tax records, 
I know, is--
    Ms. Jayapal. Thank you. Thank you for that clarification. 
You can collect--you could potentially collect it, though, but 
perhaps not with the scale that I mentioned with--
    Mr. Wiegmann. Right. So, the law specifically mentions tax 
records and says in the case of an application for an order 
requiring, let us say, book sale records, firearms sales, and 
then tax return records--or medical records, so medical records 
are also contemplated in the statute--then that application has 
to go to a higher-level review. So, that is the Director of the 
FBI, the Deputy Director, and I think the EAD, the Executive 
Assistant Director.
    So, to answer your question, the statute does contemplate 
the possibility of getting medical records or tax records, but 
recognizing the sensitivity, particularly of those types of 
records, they are elevated for particularly senior review. I am 
just saying that I personally am not aware of whether we have 
ever done that in a--the connection of a medical or tax record 
to a terrorism investigation or counterintelligence is, I 
guess, unlikely, but it is possible.
    Ms. Jayapal. Then you might be supportive of excluding 
those kinds of records?
    Mr. Wiegmann. I don't think that we like to exclude because 
you never know whether--if those records meet the standard and 
they are relevant in an authorized counterterrorism or 
counterintelligence investigation, then--
    Ms. Jayapal. Well, let me just say, I am hearing you, but I 
am deeply concerned about the kinds of information that we 
collect. And Ms. Morgan, you mentioned earlier that Chairman's 
questions were not the right standard to assess whether or not 
a program was effective. At some point, perhaps--I have another 
question to get through, so--and I see my time has expired, but 
maybe at some point you could provide us with what matrix are 
reasonable, because I think the problem that we are dealing 
with is we are trying to strike the right balance of 
maintaining security, of course, but we have to respect these 
bedrock values of privacy and civil liberties protections. When 
we authorized this and we see what happened with the CDRs, I 
think that is just an indication of the challenges that we 
face.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Florida.
    Ms. Demings. Thank you so much, Mr. Chairman. And thank you 
all for what you do every day to help to keep us safe.
    If we could just go back a little bit to follow up on my 
colleague's questions about whatever the information is, that 
it would have to be relevant, I believe. Could you talk a 
little bit about the checks and balances of the FISA Court 
application system that would maybe relieve some of the 
concerns there?
    Mr. Orlando. To begin with, first we have to open a case, 
which has to have supervisor approval. As we move forward to do 
a business record and the agent drafts that up, it goes back to 
a supervisor review, all the way up the chain, over to our 
headquarters where there are a number of lawyers that look at 
that application to make sure that we have the right relevancy 
that is relevant to a national security investigation, and then 
it moves over to the Department of Justice for another series 
of attorneys who look at it before it goes over to the Court. 
So, there are a number of individuals and supervisors that are 
looking at these applications.
    Ms. Demings. Mr. Wiegmann.
    Mr. Wiegmann. You also have to have a statement of facts. 
You can't just assert that it is relevant. You have to have the 
factual showing that it is relevant to the investigation. Then 
you also have to be able to show that it is not based on First 
Amendment-protected activity. Then you have to present all of 
that to the FISA Court, and the FISA Court has to agree. So, 
there is a really elaborate process that Mike just described, 
and then it ends up with a judicial approval.
    Ms. Demings. Thank you. Moving on, Mr. Orlando, to roving 
wiretaps, when the Government applies to conduct electronic 
surveillance under FISA, it always--does not always necessarily 
have to identify the person being targeted. The law requires 
you to State the identity, if known, or a description of the 
specific target.
    At a general or hypothetical level, can you describe why 
you might not know the identity of a particular target and 
would instead provide a description of the target? Or in most 
cases, do you know--
    Mr. Orlando. I would say in all my experience, we have 
always known who that individual is. The roving authority gives 
us the ability, if they are using tradecraft to elude us so 
that we get secondary orders so we can go to multiple 
facilities. We still have to go back to the Court within 10 
days to describe what we have done. The only circumstance 
hypothetically that I can think of is if there is a pending 
threat and we don't have a name, but we have a number of 
identifiers of what that individual is. If we can possibly 
present a case to the Court that we think it is this type of 
person because it meets all the identifiers might be that 
circumstance.
    Mr. Wiegmann. If I could just add on that, without getting 
into the classified detail, I think the cyber context is one in 
which you can imagine you might have a lot of information to be 
able to identify an individual that may not know that person's 
name. So, I can give you more information about that, but I 
think if that is what you are referring to, the cyber context 
would be the context in which that would most be applicable.
    Ms. Demings. So, with the roving wiretaps, could you just 
briefly describe why you feel this provision is so needed and 
why terrorists or national security threats have been detected 
or prevented as a result of it, and if it is classified, just 
please give us a hypothetical.
    Mr. Orlando. Sure, I can talk about both counterterrorism 
and counterintelligence hypothetical situations. On the 
counterterrorism side, we have the threat of the homegrown 
violent extremists who are radicalizing very quickly and 
mobilizing very quickly. We have to disrupt them faster than we 
have had to disrupt them in the past 20 years. They are 
involving with their tradecraft. We have instances where they 
change their cell phones and emails and online profiles pretty 
quickly. That roving authority helps us keep pace with them. If 
we did not have that authority, we would have to repeatedly go 
back to the Court or seek emergency authority and get the order 
thereafter, which would cause delay.
    On the counterintelligence side, we have foreign 
intelligence services that have highly trained intelligence 
officers who are trained to evade FBI surveillance, who are 
able to come into the country, change cell phones, change 
emails, change rented vehicles. This gives us the capability to 
keep pace with them.
    Ms. Demings. I believe it was said earlier that the lone-
wolf provision has never been used.
    Mr. Orlando. Yes.
    Ms. Demings. Could you give me--well, I find that 
surprising but--and the concern that just expressed, could you 
give me some examples of how it could be used to help decrease 
domestic terrorism?
    Mr. Orlando. I don't believe it applies to domestic 
terrorism. What I will say, for the lone-wolf statute, with the 
homegrown violent extremists, these are individuals who are 
here in the United States. For that statute, they would have to 
be a non-U.S. person, but they have a global jihadist ideology. 
Homegrown violent extremists are not taking direction from a 
terrorist organization. To date, we have been able to thwart 
those activities by finding other ways of getting FISAs or 
making some sort of connection. With this evolution, I foresee 
the possibility of using that statute, possibly coming through 
with the way the threat is evolving, where people are using 
mixed ideologies.
    Ms. Demings. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from California.
    Mr. Correa. Thank you, Mr. Chairman. I would like to add my 
voice to the chorus of colleagues here that have expressed 
appreciation for your work, protecting our country, our 
citizens. I also wanted to add my concerns about civil 
liberties and privacy.
    We are not a police state. Our security to a great extent 
relies on the trust of our population in our governmental 
institutions and our police, so to speak.
    In my district, we probably speak 100 different languages. 
I think about my district as being the new Ellis Island of the 
United States. I have people from all over the world, literally 
from all over the world, living in my district. Trust in our 
police agencies is paramount.
    To give you an example, a few years ago we--I didn't but 
neighbors arrested a rapist in the Act of raping a woman. He 
was convicted of 20 rapes. We think there were more victims, 
but yet those victims never presented themselves because they 
feared the authorities and many of them were undocumented.
    I wanted to follow up some of the questions Congressman 
Cohen touched on, which was the impact of sections 215 on 
minority communities. Specifically, your information that you 
gather, is it shared with immigration enforcement authorities?
    Mr. Orlando. There would have to be some crime that relates 
to them before we would share any information with them.
    Mr. Correa. So, let me help you clarify for me, it is not 
shared with immigration authorities unless it is relevant to 
some specific crime, some national interest of specific 
criminal acts of terrorism or otherwise? Is that what I am 
hearing?
    Mr. Orlando. It would have to be done on a specific case by 
case where there is relevancy for us to pass it to them.
    Mr. Correa. So specifically wiretap, you suspect somebody 
on one end or the other, the U.S. is--may have a question of 
immigration status, that information is not automatically 
turned over to immigration enforcement authorities?
    Mr. Orlando. It would have to be relevant. For instance, if 
we had determined that we have a terrorist threat that is 
possibly coming through the border, we would turn it over to 
our partners in CBP to assist us in neutralizing that threat.
    Mr. Correa. That terrorist threat is not one defined as 
merely immigration status but, rather, they are here to do 
serious violent acts to our population?
    Mr. Orlando. They would have to meet the definition of an 
international terrorism case.
    Mr. Correa. Ms. Morgan?
    Ms. Morgan. Yes, sir, as I stated before, we have used the 
CDR Program specifically to focus on mitigating threats from 
international terrorism. If we find information related to 
international terrorism, we will report it out to entities 
authorized to get that information.
    Mr. Correa. Mr. Wiegmann?
    Mr. Wiegmann. Again, there are minimization procedures 
under all FISA authorities that specify the rules for when you 
can disseminate information. The general standard is it has to 
be foreign intelligence information, necessary to understand 
foreign intelligence information, or evidence of a crime. Those 
are, generally speaking--
    Mr. Correa. That crime would not be immigration status in 
this country?
    Mr. Wiegmann. That is a good question as to whether someone 
had illegally entered. Would that be a crime? So, if you had 
evidence that was bearing on that as a crime, I don't know. 
Maybe that is possible if the actual information was evidence 
of that crime.
    Mr. Correa. Could you get me more information on that, 
under what circumstances that may be possible or not?
    Mr. Wiegmann. Sure, absolutely.
    Mr. Correa. Again, my question is your information is 
shared with immigration authorities on the fact that maybe 
somebody here--their immigration status is not correct, so to 
speak.
    Mr. Wiegmann. I will get back to you on that.
    Mr. Correa. I can envision a situation--you have a very 
powerful tool at your disposal, information, wiretapping. You 
could very easily turn that around and say we are going to use 
this for immigration purposes. I hope you do not get that--
    Mr. Orlando. That would not be correct, sir. We only use 
these authorities to counter foreign intelligence services and 
foreign terrorism organizations and international terrorists, 
lone-wolf international terrorists.
    Mr. Correa. I would like something in writing from each of 
you on that specific. I don't want a treatise, but just 
something clear.
    Mr. Correa. Finally, the last 20 seconds, I also would like 
to know what tools you need to fight domestic terrorism. You 
mentioned that the lone-wolf provision has not been applied. 
Maybe it can be--it only applies to maybe international, not 
domestic. I want to know what tools you need to keep our 
population safe in the U.S. from emerging domestic terrorism 
threats.
    With that, Mr. Chair, I yield.
    Chairman Nadler. The gentleman yields.
    The gentlelady from Texas.
    Ms. Garcia. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing.
    I, too, want to first start by thanking all of you for the 
good work that you do in your respective agencies and to all 
the people that work in your agencies, not only in your offices 
here in DC, but obviously in the field, where the real work 
happens.
    I, too, have worked with at least the DOJ and the FBI on a 
number of cases in my capacity as a judge and a lawyer, never 
with NSA. So, I just want to make sure that you know that there 
are many of us out there who do support you and do so without 
shame. However, when we look at the whole picture, I know that 
it is all about the balances, and the national security or 
threats versus the privacy of individuals versus some of the 
other things that we have got to balance.
    I wanted to start with you, Ms. Morgan, to clarify even for 
the audience that is watching at home perhaps. We get a letter 
from your agency that says that NSA has suspended the Call 
Detail Records Program and has deleted the call details record. 
This decision was made after balancing the program's relative 
intelligence value, associated costs and compliance.
    If we have suspended it, and you keep saying you need the 
tool in your toolbox, obviously in my toolbox, if I have a 
broken hammer, I just throw it out. I mean, why is it that you 
suspended it and now you think that you need it? I know you 
said that emphatically as a professional, that you thought you 
needed it. So, I want to be clear as to why we really do need 
it.
    Ms. Morgan. Thank you for your question, ma'am. I really do 
appreciate it. So, as we have stated and as was stated in the 
letter, we made the decision to suspend the program after we 
balanced the intelligence value that did exist in the program 
when it was--
    Ms. Garcia. Yeah, but you said there was a lot of matrix, 
but you only referenced two, the ones Chairman talked about.
    Ms. Morgan. I am sorry?
    Ms. Garcia. I said you talked about a lot matrix that go 
into making that decision, but you only mentioned the two that 
I believe Chairman mentioned. So, what other matrix do you all 
consider?
    Ms. Morgan. So, when we evaluate our intelligence programs, 
we are going to look at them across the panoply of all the 
different programs that we have.
    Ms. Garcia. I know, but we talked about two. What others do 
you look at?
    Ms. Morgan. What others do I look at?
    Ms. Garcia. Mm-hmm.
    Ms. Morgan. In terms of making decisions as--on value. Is 
that what you mean?
    Ms. Garcia. Yeah, and why we should reinstate the program--
reauthorize it.
    Ms. Morgan. So, what I would say is that, as I sit here as 
an intelligence professional, and I started my career in 2001 
as an intelligence analyst. I can tell you that you can't--you 
never know what you are going to confront in the future--
    Ms. Garcia. I know, but you have told us all that. I want 
specific matrix that you all look at to determine whether or 
not did you want the program reauthorized after you have 
already suspended it.
    Ms. Morgan. Ma'am, can you help me understand what you mean 
by ``matrix''?
    Ms. Garcia. Well, you used--I am using your own words.
    Chairman Nadler. I think you mean ``metrics.''
    Ms. Morgan. Oh, metrics.
    Ms. Garcia. Metrics.
    Ms. Morgan. I am sorry, ma'am. I thought you said--
    Ms. Garcia. I did say ``matrix.'' I misspoke. I apologize.
    Ms. Morgan. I apologize for that.
    Ms. Garcia. It has been a rough week already.
    Ms. Morgan. I am sorry?
    Ms. Garcia. It has been a rough week already.
    Ms. Morgan. It has been a long day. But metrics. So, what I 
would say is a couple things. One is you are not always 
necessarily going to have metrics because the intelligence 
profession is not always something that can be specifically 
measured, and you can't necessarily measure the information, 
the lead information that I got over, ultimately, weeks, 
months, years from now, actually led me to have this 
significant picture that provides me with critical insights 
from a foreign intelligence perspective. So, it is not always 
that you are going to have like a data point, like this amount 
of this particular thing happened to happen. You are not always 
going to have a number.
    In some instances, it is going to be intelligence 
professionals, discussions with our colleagues, to say, ``Hey, 
we reported this information out from this program. Has it been 
of value to you? How has it been of value to you?'' Then you 
are going to take that information and make a decision based on 
different factors that you can consider. You are not 
necessarily going to have, ``Well, this program I rate a 5 and 
this program I rate a 3, and here is all my data.''
    Ms. Garcia. Well, it sounds like you want to keep it just 
in case you might want to use it, and I am not sure that I 
agree with that. So, I am going to have to cut you off because 
I quickly want to ask a question from the FBI folks. A number 
of companies offer genetic testing services to test for 
genealogical research, for detection of carrier status for 
inherited conditions. Is any of that also subject to the FISA 
215 activity?
    Mr. Orlando. This might be one of those where we need to 
refer back to the book again. I am not familiar of any time we 
have asked for that type of information.
    Ms. Garcia. Okay.
    Mr. Wiegmann. So, again, the 215 authority is just a grand 
jury subpoena. You can really request any type of tangible 
thing, any type of record, provided you have established that 
it is relevant to an authorized investigation and you have 
specific facts that show that. It seems unlikely, again, as I 
said earlier with respect to medical records that would be the 
case--
    Ms. Garcia. Well, there is a lot of--what about--
    Mr. Wiegmann. It is not ruled out because it--I don't know 
what the fact pattern might be, but could there be a fact 
pattern in which that was relevant to an investigation? I don't 
know.
    Ms. Garcia. What about the videos from the new door bells 
that you go to the door and there is a video camera or the 
video surveillance at the front door that you are videoing--
    Mr. Wiegmann. That most certainly could be relevant in an 
investigation. I am sure that could be--I can easily envision 
scenarios where that could be relevant to an investigation.
    Mr. Orlando. Ma'am, if I could add on the business records 
provision, mostly what we use it for is a building block. We 
open a case; we identify a subject, his telephone numbers, his 
email addresses. We will go to the Court for a business record 
to identify the transactional records, not the content, to see 
who he is talking to, to see if we can build a connection to 
the terrorist organization to identify the network. And then we 
have our analysts look at that, and then we use that to aid us 
to building the probable cause to move to a FISA Court-
authorized surveillance.
    Ms. Garcia. All right. Thank you, Mr. Chairman. My time has 
run out, I believe. I yield back.
    Chairman Nadler. The gentlelady yields back.
    This concludes today's hearing. We thank all of our 
witnesses for participating.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Without objection, the hearing is adjourned.
    [Whereupon, at 12:21 p.m., the Committee was adjourned.]

  

                                APPENDIX

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
